APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals for
the Sixth Circuit (December 19, 2019) .............. 1a
Opinion and Order of the United States District
Court, Eastern District of Michigan, Southern
Division Denying Plaintiff’s Motion to Exclude
Mark Clor’s Testimony, Denying Plaintiff’s
Motion for Summary Judgment, Granting
Defendants’ Motion for Summary Judgment,
Dismissing Certain Discovery Motions, and
Dismissing the Amended Complaint with Prejudice (November 7, 2018) ................................ 26a
Order Denying Petition for Rehearing En Banc of
the United States Court of Appeals for the
Sixth Circuit (January 22, 2020) ..................... 62a
Relevant Constitutional Provisions, Statutory
Provisions, and Federal Rules of Procedure . 64a
Plaintiff Phyllis Davis’ First Amended Complaint,
Relevant Excerpts
(November 14, 2017) ........................................... 72a
Condominium Bylaws, Echo Valley Condominium,
Exhibit A, Relevant Excerpts ........................... 76a
Deposition of Louise Genovese, Relevant Excerpts
(April 30, 2018) ................................................. 78a
Deposition of Diana Williams, Relevant Excerpts
(April 30, 2018) ................................................. 82a

APPENDIX TABLE OF CONTENTS (Cont.)
Minutes of the Echo Valley Condominium Association (EVCA) (November 2, 2015) ................... 86a
Deposition of Colleen O’Rourke, Relevant Excerpts
(May 2, 2018) ........................................................ 88a
Defendants’ Motion for Summary Judgment,
Relevant Excerpts (June 18, 2018) .................. 91a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT
(DECEMBER 19, 2019)
RECOMMENDED FOR FULL-TEXT
PUBLICATION PURSUANT TO SIXTH CIRCUIT
I.O.P. 32.1(B)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
PHYLLIS DAVIS,

Plaintiff-Appellant,
v.
ECHO VALLEY CONDOMINIUM ASSOCIATION;
CASA BELLA PROPERTY MANAGEMENT, INC.,

Defendants-Appellees.
________________________
File Name: 19a0302p.06
Case No. 18-2405
Appeal from the United States District Court for the
Eastern District of Michigan at Detroit.
No. 2:17-cv-12475, David M. Lawson, District Judge.
Argued: June 20, 2019
December 19, 2019
Before: COOK, NALBANDIAN,
and MURPHY, Circuit Judges.

App.2a
OPINION

MURPHY, Circuit Judge. Phyllis Davis suffers
from asthma but lives in a condominium complex
that allows residents to smoke in their condos. Davis
asserts that the smell of smoke regularly emanating
from a neighbor’s condo aggravated her asthma.
Unsatisfied with her condo association’s efforts to
address the situation, she sued the association and
its property manager. Davis alleged that these defendants, by refusing to ban smoking, discriminated against
her under the Fair Housing Amendments Act, violated
various condo bylaws, and allowed a tortious nuisance
to persist. The district court rejected Davis’s claims
on summary judgment. We affirm.
I.
In the 1970s, a developer built the Echo Valley
Condominium complex in Farmington Hills, Michigan.
The complex is governed by a master deed, bylaws,
and the Michigan Condominium Act, Mich. Comp.
Laws § 559.101–.276. The bylaws impose many regulations on condo owners. They contain several specific
bans, including, for example, a ban on keeping a dog
or cat in a condo. They also contain general rules like
the following: “No immoral, improper, unlawful or
offensive activity shall be carried on in any apartment or upon the common elements, limited or
general, nor shall anything be done which may be or
become an annoyance or a nuisance to the co-owners
of the Condominium.”
The Echo Valley Condominium Association—an
association of co-owners organized as a nonprofit
corporation that we will call the “Association”—
manages the Echo Valley complex. A board of direc-

App.3a
tors made up of volunteer co-owners oversees this Association. The bylaws give the board “all powers and
duties necessary for the administration” of the Echo
Valley complex, including maintaining the common
elements, collecting the assessments, and enforcing
the bylaws. The board also must contract with a professional manager to carry out its duties. At most
times relevant here, the Association contracted with
Casa Bella Property Management, Inc., to help run
the complex.
The minutes from the regular meetings of the
Association’s board show that condo living can be
trying, and board membership a thankless task. The
board fields complaints ranging from the need for
repairs (“We have had nine A.C. units break down
since we last [met]”), to non-residents sneaking into the
pool (“I could not believe the condition of the water
after the guests left”), to inflamed passions from the pet
ban (“another lady is very upset and is considering
taking [a board member] to court if she stays on the
board with a pet”).
This case concerns another fact of life in Echo
Valley: Condo owners regularly detect odors from
each other’s condos. Residents, for example, have
complained about the smell of their neighbors’ cooking.
Some residents also smoke cigarettes in their condos.
Michigan law permits smoking in one’s home, cf. Mich.
Comp. Laws § 333.12603(1), and the Association has
long read the bylaws to permit residents to smoke in
their units. (The bylaws say nothing specific about
smoking.) Yet neighbors can sometimes smell this
smoke, and in-condo smoking has produced complaints
to the Board over the years. Some residents have

App.4a
even moved out because of the Association’s policy
allowing smoking.
Davis, a cancer survivor with “a history of asthma
and multiple chemical sensitivity disorder,” seeks to
change the Association’s smoking policy through this
suit. In 2004, she bought a condo on the second floor
of a four-unit building in the complex. The condos in
her building share a common entryway, basement,
and attic. A 2015 letter that Davis addressed to “Dear
Neighbor” suggests that smells and sounds carry across
her building. As for smells, Davis told her neighbor
that she “almost had an asthma attack” because
“[t]he smell of whatever you were cooking this morning
engulfed my condo.” She asked her neighbor to cook
with the windows open and exhaust fan on. As for
sounds, Davis added: “Also, please stop slamming
your door when you come in as it is very loud.”
Davis’s more recent concern has been cigarette
smoke. Moisey and Ella Lamnin owned a condo on
the first floor of Davis’s building and began renting it
to Wanda Rule in 2012. At some point not apparent
in the record, the smell of smoke from the Lamnins’
condo (presumably from Wanda Rule and her husband)
started entering Davis’s unit and lingering in the
building’s common areas. According to Davis, the smoke
“has significant adverse effects on [her] ability to
breathe comfortably.”
On March 1, 2016, in her first written complaint
in the record, Davis emailed a Casa Bella employee
to report that the Lamnins’ tenants “do not work, so
they are home all day and night chain smoking,” which
affected her “breathing, causing constant coughing,
and near asthma attacks.” She asked if the board
could “make owners accountable for cigarette and

App.5a
other types of smoke seeping through the cracks of
their doors and vents.” The Association’s board, which
at that time included Davis, discussed her complaint at
a March 2016 meeting. The board ultimately directed
the Casa Bella employee to send a letter to the
Lamnins. The letter noted that the board had received
complaints about the smoke and that, “[w]hile there
is no rule or regulation that prohibits smoking inside
one’s home, it can be considered a nuisance to those
who do not smoke.” The letter requested the Lamnins’
“assistance in keeping the smell contained,” such as
by asking their tenants to smoke on their balcony or
by further insulating their doors.
Minutes from a board meeting in February 2017
memorialize another complaint. Davis urged the board
to send a second letter to the Lamnins about “heavy
smoking of cigarettes, weed and etc[.], infiltrating
common areas and other units.” This time the board
chose a different path. It asked Mark Clor, a heating
and cooling contractor, to install a $275 fresh-air
system on Davis’s ductwork. This system allowed
Davis’s furnace to draw in fresh air from outside
rather than stale air from the basement. Other board
members who had installed a similar system thought
that it eliminated a significant portion of the smoke
smell infiltrating their condos.
While Davis told Clor that the system “was helping
with the smell of smoke,” it did not fully eliminate
the odor. In April 2017, her lawyer sent a letter to
the Lamnins stating that the smoke pervading her
condo affected her health. The letter suggested that
the Rules’ smoking breached various bylaws and
created a common-law nuisance. It asked the Lamnins
either to ensure that smoke did not escape their

App.6a
condo or to order their tenants to stop smoking. It
also copied the Association’s board and made “a
formal demand that [it] take further action.”
In their response, the Lamnins declined to force
the Rules to cease smoking because the bylaws permitted the practice. Yet the Rules, “in the spirit of
being good neighbors,” volunteered to “purchase and
use an air purifier/ionizer[] to clean the air in their
unit of any residual cigarette smoke.” This solution
did not appease Davis either. In “logs” that she kept
between May and July 2017, she regularly identified
times that she could still smell smoke in her condo or
the hallways.
Things came to a head in July 2017. Davis sued
the Association, Casa Bella, and the Lamnins (and
later amended her complaint to add Wanda Rule).
Davis alleged that, by refusing to ban smoking in her
building, the Association had discriminated against
her because of her disability in violation of the Fair
Housing Amendments Act, 42 U.S.C. § 3604(f), and a
similar Michigan law. (The parties agree that the
state law has the same elements as the federal act,
so we do not discuss it separately.) Davis also asserted
two other state-law claims: a breach-of-covenant claim
for violations of various bylaws, and a nuisance
claim. She sought damages and an injunction against
smoking in her building.
Davis’s suit was apparently the last straw for
the Lamnins. They told Wanda Rule that they would
terminate her lease effective December 31, 2017. The
Rules moved out, and the Lamnins sold their condo.
By March 2018, Davis had settled with the Lamnins
and dismissed them from this suit.

App.7a
Even after the primary source of Davis’s complaints had moved out, she continued to litigate the
suit against the Association and Casa Bella. In
March 2018, she began keeping “logs” again after
smelling cigarette and marijuana smoke from a new
source. The next month, her lawyer told defense
counsel that another resident “in Ms. Davis’[s] building
ha[d] started smoking cigarettes and marijuana,”
which was “triggering Ms. Davis’[s] asthma, and
making it very difficult for her to breathe.” The lawyer
asked the Association to grant Davis “a reasonable
accommodation and prohibit smoking within her
building.” The Association requested more information
about the source, but never received a definitive answer
(at least not one in the record). Around this time, as
a result of this suit, the Association circulated a
bylaws-amendment package to condo owners proposing
a smoking ban in the complex. The proposal failed to
pass.
Following these developments, each side moved
for summary judgment. The district court granted
the defendants’ motion. Davis v. Echo Valley Condo.
Ass’n, 349 F. Supp. 3d 645, 665 (E.D. Mich. 2018). It
recognized that the Fair Housing Amendments Act
prohibits discrimination based on disability and defines
“discrimination” to include the refusal to grant a reasonable accommodation. Id. at 657. The court held,
however, that Davis’s requested smoking ban was not
a “reasonable accommodation.” Id. at 659. The ban
would fundamentally change the Association’s smoking
policy by barring residents “from engaging in a lawful activity on their own property.” Id. The court next
rejected Davis’s nuisance claim, analogizing to Michigan cases that refused to hold a landlord liable for a

App.8a
tenant’s nuisance. Id. at 660. And it found that Davis’s
four breach-of-covenant claims failed for various
reasons. Id. at 661–65.
II.
Davis raises eight issues on appeal. She disputes
the district court’s resolution of her disability claim,
her breach-of-covenant claims, and her nuisance claim.
She also asserts evidentiary and discovery challenges.
Reviewing the court’s grant of summary judgment de
novo, Westfield Ins. v. Tech Dry, Inc., 336 F.3d 503,
506 (6th Cir. 2003), and its procedural rulings for an
abuse of discretion, United States v. Kelsor, 665 F.3d
684, 696 (6th Cir. 2011); Vance ex rel. Hammons v.
United States, 90 F.3d 1145, 1149 (6th Cir. 1996), we
affirm on all fronts.
A.
We begin with the disability claim. The Fair
Housing Amendments Act of 1988 amended the Fair
Housing Act to bar housing discrimination against
the handicapped. Pub. L. No. 100-430, § 6, 102 Stat.
1619, 1620–22 (adding 42 U.S.C. § 3604(f)). Section
3604(f) makes it unlawful “[t]o discriminate against
any person in the terms, conditions, or privileges of sale
or rental of a dwelling, or in the provision of services
or facilities in connection with such dwelling, because
of a handicap of” that person. 42 U.S.C. § 3604(f)(2).
Section 3604(f) then defines “discrimination” “[f]or
purposes of this subsection” to include “a refusal to
make reasonable accommodations in rules, policies,
practices, or services, when such accommodations
may be necessary to afford such person equal opportunity to use and enjoy a dwelling.” Id. § 3604(f)(3)(B).

App.9a
Combining these two paragraphs in § 3604(f), Davis
argues that the Association and Casa Bella “discriminate[d] against” her “in [their] provision of services
or facilities in connection with” her condo by refusing
to provide a “reasonable accommodation[]” (a smoking
ban in her building) to their general “polic[y]” allowing
smoking. Id. § 3604(f)(2)–(3).
Section 3604(f)’s text requires Davis to prove several things. See Hollis v. Chestnut Bend Homeowners
Ass’n, 760 F.3d 531, 541 (6th Cir. 2014). To begin with,
§ 3604(f)(2) prohibits discrimination only “because of
a handicap,” so Davis must show that her asthma
falls within the definition of “handicap.” See 42 U.S.C.
§ 3602(h). But Davis offered little evidence that, apart
from the smoke-related aggravation, her asthma was
otherwise severe enough to “substantially limit[]” a
“major life activit[y].” Id. § 3602(h)(1); cf. Milton v.
Tex. Dep’t of Criminal Justice, 707 F.3d 570, 573–74
(5th Cir. 2013); Wofsy v. Palmshores Ret. Cmty., 285
F. App’x 631, 634 (11th Cir. 2008) (per curiam); Sebest
v. Campbell City Sch. Dist. Bd. of Educ., 94 F. App’x
320, 325–26 (6th Cir. 2004).
In addition, § 3604(f)(3)(B) requires only those
accommodations that are “necessary” to give a person
with a handicap an “equal opportunity to use and
enjoy a dwelling.” But, as the district court noted,
Davis’s total smoking ban likely was not necessary
(that is, “‘indispensable,’ ‘essential,’ something that
‘cannot be done without’”) to give her the same opportunity to use and enjoy her condo as compared to a
non-disabled person who dislikes the smell of smoke.
Cinnamon Hills Youth Crisis Ctr. v. St. George City,
685 F.3d 917, 923 (10th Cir. 2012) (Gorsuch, J.) (citation omitted); Vorchheimer v. Philadelphian Owners

App.10a

Ass’n, 903 F.3d 100, 105–09 (3d Cir. 2018); see Davis,
349 F. Supp. 3d at 658–59. In fact, Davis was apparently able to use her condo for “several years” despite
the Rules’ smoking, Howard v. City of Beavercreek,
276 F.3d 802, 806 (6th Cir. 2002), and the law “does
not require more or better opportunities” for those with
handicaps as compared to those without, Cinnamon
Hills, 685 F.3d at 923.
Ultimately, though, we find it easiest to resolve
Davis’s claim on another ground: She must show that
her request qualifies as a “reasonable accommodation”
to the Association’s policy of allowing smoking. Davis
cannot meet this element. Text and precedent both
show that the phrase “reasonable accommodation”
means a moderate adjustment to a challenged policy,
not a fundamental change in the policy. Davis’s
smoking ban falls in the latter camp.
Start, as always, with the text. Se. Cmty. Coll. v.
Davis, 442 U.S. 397, 405 (1979). The Fair Housing
Amendments Act defines discrimination to include “a
refusal to make reasonable accommodations in rules,
policies, practices, or services.” 42 U.S.C. § 3604(f)
(3)(B). In this context, the word “accommodation”
means “adjustment.” 1 Oxford English Dictionary 79
(2d ed. 1989); The American Heritage Dictionary of
the English Language 11 (3d ed. 1992). Like the word
“modification,” therefore, “accommodation” is not an
apt word choice if Congress sought to mandate “fundamental changes” to a housing policy. See MCI
Telecomms. Corp. v. Am. Tel. & Telegraph Co., 512
U.S. 218, 225 (1994). Consider two examples: One
would naturally say that a blind tenant requests an
accommodation from an apartment’s “no pets” policy
if the tenant seeks an exemption for a seeing eye dog.

App.11a
24 C.F.R. § 100.204(b)(1). But one would not naturally
say that a tenant with allergies requests an accommodation from an apartment’s “pet friendly” policy if
the tenant seeks a total pet ban. The former tenant
seeks a one-off adjustment; the latter seeks a complete
change. The word “accommodation” includes the first,
but not the second, request.
The adjective “reasonable” further narrows the
types of accommodations that the text directs property
owners to make. Even if a request would qualify as
an “adjustment,” the adjustment still must be
“moderate,” “not extravagant or excessive.” 13 Oxford
English Dictionary, supra, at 291; American Heritage
Dictionary, supra, at 1506. Put another way, the
word “reasonable” conveys that the adjustment cannot
“impose[] ‘undue financial and administrative burdens.’” Smith & Lee Assocs. v. City of Taylor, 102 F.3d
781, 795 (6th Cir. 1996) (citation omitted). The word
also indicates the process that courts should undertake
when deciding if a proposed adjustment is unduly
burdensome. Dating back to the “‘reasonable’ person
of tort fame,” a reasonableness inquiry “has long been
associated with the balancing of costs and benefits.”

See Int’l Union, United Auto., Aerospace & Agr.
Implement Workers of Am. v. OSHA, 938 F.2d 1310,
1319 (D.C. Cir. 1991) (citing United States v. Carroll
Towing Co., 159 F.2d 169, 173 (2d Cir. 1947) (Hand,

J.)). So an adjustment goes too far if the costs of
implementing it exceed any expected benefits it will
provide the person requesting it. Smith & Lee Assocs.,
102 F.3d at 795.
The backdrop against which Congress legislated
also supports this reading of “reasonable accommodation.” When the Supreme Court has given a phrase a

App.12a
specific meaning, courts assume that Congress intends
that meaning to carry over to the “same wording in
related statutes.” Antonin Scalia & Bryan A. Garner,
Reading Law: The Interpretation of Legal Texts § 54,
at 322 (2012); Merrill Lynch, Pierce, Fenner & Smith
Inc. v. Dabit, 547 U.S. 71, 85–86 (2006). Here, when
Congress passed the Fair Housing Amendments Act,
the Supreme Court had already coined the phrase
“reasonable accommodation” to delimit the requirements of the Rehabilitation Act of 1973. Alexander v.
Choate, 469 U.S. 287, 300 & n.20, 301 & n.21 (1985).
And Choate contrasted the “reasonable accommodations” that the Rehabilitation Act compels with
the “fundamental alteration[s]” that it does not. Id.
at 300 n.20 (quoting Davis, 442 U.S. at 410). This
preexisting view confirms that the Fair Housing
Amendments Act requires only moderate adjustments.
One last textual point. The prepositional phrase
“in rules, policies, practices, or services” modifies the
noun “accommodation” and provides the benchmark
against which to assess whether a request qualifies
as a “reasonable accommodation.” See 42 U.S.C.
§ 3604(f)(3)(B). In other words, the phrase tells courts
that they should not ask whether the request is a
moderate adjustment or a fundamental change in
some abstract sense. Rather, they should ask whether
the request is a modest adjustment or fundamental
change of the “rule, policy, practice, or service” that
the plaintiff challenges.
Now turn to precedent. Whether under the Rehabilitation Act, the Fair Housing Accommodations Act,
or the Americans with Disabilities Act of 1990, caselaw interpreting the phrase “reasonable accommodation” has long distinguished the types of moderate

App.13a
adjustments that are required from the fundamental
changes that are not. See, e.g., Davis, 442 U.S. at 409–
10; Groner v. Golden Gate Apartments, 250 F.3d 1039,
1046–47 (6th Cir. 2001); McPherson v. Mich. High Sch.
Athletic Ass’n, 119 F.3d 453, 461–63 (6th Cir. 1997)
(en banc).
Two lines of cases—one focused on the nature of a
housing facility’s policy, the other on an accommodation’s effects on third parties—reveal the types of
changes that are “fundamental.”
A request works a fundamental change if it
turns the challenged policy into something else entirely.
In Davis, for example, a nursing-school applicant
with a hearing impairment asked a college to adjust
its curriculum to accommodate her disability. 442
U.S. at 407–08. But her proposed changes—such as
allowing the applicant to skip certain courses—would
have transformed the nursing degree that the college
offered into an altogether different degree. Id. at 409–
10. Similarly, in the employment context, a party
may not ask for changes to a job’s duties that would
alter the job’s “essential functions.” Jasany v. U.S.
Postal Serv., 755 F.2d 1244, 1250 (6th Cir. 1985). So,
when a job’s primary task was operating a mail-sorting
machine, a post-office employee did not propose a
reasonable accommodation by asking not to use the
machine. Id.
Apart from changes to a policy, courts also reject
requested changes that interfere with the rights of
third parties. As we said in Groner, a third party’s
“rights [do] not have to be sacrificed on the altar of
reasonable accommodation.” 250 F.3d at 1046 (quoting
Temple v. Gunsalus, No. 95-3175, 1996 WL 536710,
at *2 (6th Cir. Sept. 20, 1996) (per curiam)). There,

App.14a
the plaintiff’s mental illness caused him to disturb a
neighbor by screaming at all hours of the night. 250
F.3d at 1041. As one of his proposed accommodations,
the plaintiff asked his apartment complex to force
the neighbor out in violation of its lease. Id. at 1046.
We held that landlords need not breach their contracts
with neighboring tenants on account of a handicapped
person’s needs. Id.; see also Temple, 1996 WL 536710,
at *2. The same is generally true in the employment
context. An employer need not “bump another employee
from a position in order to accommodate a disabled
employee.” Lucas v. W.W. Grainger, Inc., 257 F.3d
1249, 1256 (11th Cir. 2001); see also U.S. Airways, Inc.
v. Barnett, 535 U.S. 391, 406 (2002).
Both lines of precedent should foreshadow the
outcome here. Davis’s proposed smoking ban amounts
to a “fundamental alteration” of the Association’s
smoking policy. Howard, 276 F.3d at 806 (citation
omitted). No one would describe a change from a
smoking-permitted policy to a smoking-prohibited
policy as an “accommodation” in the policy. It is more
rewrite than adjustment. Cf. Falchenberg v. N.Y. State
Dep’t of Educ., 338 F. App’x 11, 13–14 (2d Cir. 2009)
(summary order); Sandison v. Mich. High Sch. Athletic
Ass’n, 64 F.3d 1026, 1035 (6th Cir. 1995). Not only
that, Davis’s proposal would intrude on the rights of
third parties. Neighbors who smoke may well have
bought their condos because of the Association’s
policy permitting smoking. So, unlike the blind applicant asking to keep a seeing eye dog in an apartment
building that bans pets, Davis is like the person with
allergies seeking to expel all dogs from a building
that allows pets. Here, as in Groner, a third party’s
“rights [do] not have to be sacrificed on the altar of

App.15a
reasonable accommodation.” 250 F.3d at 1046 (citation
omitted).
B.
We next turn to Davis’s breach-of-covenant claims.
Under Michigan law, the complex’s bylaws are “in
the nature of a contract” between the condo owners
and the Association. Sawgrass Ridge Condo. Ass’n v.
Alarie, No. 335144, 2018 WL 340944, at *2 (Mich. Ct.
App. Jan. 9, 2018) (per curiam); Stadler v. Fontainebleau Condos. Ass’n, No. 343303, 2019 WL 1574776,
at *2 (Mich. Ct. App. April 11, 2019) (per curiam).
Davis seeks to enforce four of the bylaws. The first
requires owners to maintain their “apartment[s]”
and certain “appurtenant” spaces “in a safe, clean
and sanitary condition.” The second tells them: “nor
shall anything be done which may be or become an
annoyance or a nuisance to the co-owners of the Condominium.” The third says: “No co-owner shall do . . . in
his apartment . . . anything that will increase the rate
of insurance on the Condominium.” And the last notes
that no “unlawful or offensive activity shall be carried
on in any apartment.”
For three general reasons, all of Davis’s claims
face significant headwinds. Reason One: These provisions are restrictive covenants on the use of property.

See Vill. of Hickory Pointe Homeowners Ass’n v.
Smyk, 686 N.W.2d 506, 508 (Mich. Ct. App. 2004).

Because of the “bedrock principle in [Michigan] law
that a landowner’s bundle of rights includes the broad
freedom to make legal use of her property,” Thiel v.
Goyings, __ N.W.2d __, 2019 WL 3331810, at *6 (Mich.
July 24, 2019), Michigan courts construe restrictive
covenants “strictly against those claiming to enforce

App.16a
them, and all doubts [are] resolved in favor of the
free use of the property,” Moore v. Kimball, 289 N.W.
213, 215 (Mich. 1939); Millpointe of Hartland Condo.
Ass’n v. Cipolla, No. 289668, 2010 WL 1873085, at *1
(Mich. Ct. App. May 11, 2010) (per curiam). Unless
the bylaws plainly cover the challenged in-condo
smoking, therefore, Davis must lose.
Reason Two: Nowhere do the Association’s bylaws
specifically prohibit (or even regulate) smoking. The
record shows instead that the Association has long
read the bylaws to permit smoking and that Echo
Valley residents have long smoked in their homes.
The bylaws do, by comparison, specifically prohibit
many activities, ranging from keeping a dog or cat in
a condo, to drying one’s clothes in common areas, to
shooting a BB gun, to displaying a sign. If these
bylaws meant to ban smoking, they would have done
so with similarly specific language. They would not
have hidden a smoking ban in, for example, a bylaw
requiring owners to keep their apartments “in a safe,
clean and sanitary condition.” Davis thus cannot rely
on any theory of “breach” that compels the Association to impose a categorical ban on smoking.
Reason Three: Davis does not sue the purported
violators. The Lamnins sold their condo, their tenants
moved out, and Davis does not name any other
resident whose smoking affects her condo. Instead,
she sues the condo association (the Association) and
its former property manager (Casa Bella) for failing
to enforce the bylaws. The bylaws do say that the
Association’s board “shall be responsible” for the
bylaws’ “enforce[ment].” See also Mich. Comp. Laws
§ 559.207. But this secondary-liability theory means
that Davis must show more than that she has a breach-

App.17a
of-covenant claim against the Lamnins. She must show
that she has a failure-to-enforce claim against the
Association and Casa Bella despite their efforts to
accommodate her.
Against this backdrop, Davis’s four breach-ofcovenant claims fall short.
1. Safe and Clean. Davis argues that the Association and Casa Bella failed to enforce the bylaw
requiring owners to keep their condos in a “safe” and
“clean” “condition.” As generally understood, “safe”
means “free from danger,” 14 Oxford English Dictionary, supra, at 355, whereas “clean” means “free from
pollution,” The Random House Dictionary of the
English Language 383 (2d ed. 1987). But these words
must be construed in their context rather than in a
vacuum. Thiel, 2019 WL 3331810, at *6. And, notably,
they are part of a bylaws package that allows smoking.
Id. So ordinary levels of “smoke” cannot be considered a “danger” or “pollution”; otherwise, this provision would ban a practice that the bylaws permit.
Davis’s claim fails under this reading. We need not
decide whether unusual amounts or types of smoking
might violate this provision, because her theory of
“breach” is far more expansive. Based on a combination of common knowledge and board-member admissions, she argues that any smoke makes condos unsafe
and unclean because smoking is harmful to health.
This interpretation would incorrectly compel the Association to ban smoking, which we view as inconsistent with the bylaws when read as a whole.
2. Annoyance or Nuisance. Davis next contends
that smoking falls within the bylaw prohibiting activities “which may be or become an annoyance or a

App.18a
nuisance to the co-owners of the Condominium.” The
bylaw does not define these terms. A “nuisance” is,
however, a well-known common-law concept. See
Weimer v. Bunbury, 30 Mich. 201, 211 (1874) (Cooley,
J.). Under Michigan law, a private nuisance is an
“unreasonable interference with the use or enjoyment of property” that results in “significant harm.”
Adams v. Cleveland-Cliffs Iron Co., 602 N.W.2d 215,
222 (Mich. Ct. App. 1999) (emphasis omitted); Adkins
v. Thomas Solvent Co., 487 N.W.2d 715, 720–21 (Mich.
1992). And, in this context, “annoyance” is synonymous
with “nuisance.” An “annoyance” is “[a]nything
annoying or causing trouble, a nuisance.” 1 Oxford
English Dictionary, supra, at 486 (emphasis added);
see also Random House Dictionary, supra, at 84
(same); cf. Black’s Law Dictionary 82 (5th ed. 1979)
(cross-referencing “Nuisance”).
To be sure, this reading renders these terms
largely duplicative. But that is inevitable. Any reading
of “annoyance” (even one that reduces the required
interference with property) swallows up the term
“nuisance.” And “[s]ometimes drafters do repeat themselves and do include words that add nothing of substance, either out of a flawed sense of style or to
engage in the ill-conceived but lamentably common
belt-and-suspenders approach.” Scalia & Garner, supra,
§ 26, at 176–77 (listing “peace and quiet” as an example). We must also consider the restriction’s context. Thiel, 2019 WL 3331810, at *8, *10. It regulates
neighbors who have opted to live relatively close to
each other, making it unlikely that an owner’s slight
irritation would trigger a bylaw permitting the owner
to bring an “action to recover sums due for damages”
against a co-owner. Context compels limiting this

App.19a
bylaw’s coverage to activities that most residents would
reasonably find significantly bothersome—in contrast to the activities that can be “generally expected” in
a condo complex. Cf. Bedows v. Hoffman, No. 4-160146, 2016 WL 6906744, at *11 (Ill. Ct. App. Nov. 22,
2016).
We agree with the district court that Davis did
not create a genuine issue of material fact that the
Board violated its duty to enforce this nuisance
bylaw. Davis, 349 F. Supp. 3d at 662–65. Davis chose
to live in a condo complex whose bylaws do not
restrict smoking. As other courts have found, while
even a small amount of smoke might be a nuisance
in a complex that bans smoking, the same cannot be
said for a complex that allows it. See Schuman v.
Greenbelt Homes, Inc., 69 A.3d 512, 520 (Md. Ct.
Spec. App. 2013). Indeed, other courts reviewing these
claims “have almost uniformly found no right to relief”
on nuisance theories. Nuncio v. Rock Knoll Townhome
Vill., Inc., 389 P.3d 370, 374–75 (Okla. Civ. App. 2016);
see Ewen v. Maccherone, 927 N.Y.S.2d 274, 276–77
(N.Y. App. Div. 2011) (per curiam); Boffoli v. Orton,
No. 63457-7-I, 2010 WL 1533397, at *3 (Wash. Ct.
App. Apr. 19, 2010); DeNardo v. Corneloup, 163 P.3d
956, 961 (Alaska 2007). These cases identify a (clear)
default rule around which parties may bargain by, for
example, adopting restrictive covenants imposing a
specific ban (or limit) on smoking in their communities.
Cf. R.H. Coase, The Problem of Social Cost, 3 J.L. &
Econ. 1 (1960).
In addition, while smoking affects Davis more
than other residents given her unique sensitivities,
that fact undercuts her breach-of-covenant claim. As
another court has noted, “nuisance is not subjective.”

App.20a

Schuman, 69 A.3d at 525. This bylaw ties the standard of liability to an ordinary resident, not a resident
with unique needs.
Lastly, the Association and Casa Bella did not
simply ignore Davis’s concerns. They sought to facilitate
a compromise. The Association’s board initially authorized a letter asking the Lamnins to assist in
keeping the smoke smell contained to their condo. At
the Association’s expense, the board then contracted
for a $275 fresh-air system for Davis’s condo, a
system that Davis said helped to reduce the smell of
smoke. The Rules also agreed to use an air purifier
in their unit. And the board ultimately put the issue
to the condo owners by holding a vote on whether to
ban smoking. After the Rules left, moreover, Davis
never identified for the board any other specific
resident that allegedly violated a bylaw. These efforts
undermine any claim that the board failed to enforce
the bylaw. Cf. America v. Sunspray Condo. Ass’n, 61
A.3d 1249, 1255–56 (Me. 2013).
In response, Davis argues that a relaxed standard of annoyance applies because the bylaw covers
activities that “may be or become” an annoyance.
“As used here,” we read “the auxiliary verb ‘may’
[to] signal[] a hazard that is yet to come”; it does not
lower the level of hazard that must be shown. Russell
v. Citigroup, Inc., 748 F.3d 677, 680 (6th Cir. 2014)
(citing a definition of “may” in Oxford English
Dictionary (3d ed. 2012)). Indeed, when asked at oral
argument why this lower level of annoyance would
not ban a resident from cooking if a neighbor found
the smell annoying (as Davis has found it previously), her counsel responded that “cooking is necessary.” We see no textual basis for that distinction;

App.21a
instead, we think the standard of annoyance must be
set at a sufficiently high level to permit activities
that are “generally expected” in a condo complex.
Bedows, 2016 WL 6906744, at *11. And in the Echo
Valley complex, those expected activities include both
cooking and smoking in one’s condo.
Davis also points to evidence suggesting that the
amount of smoke infiltrating her condo and her
hallways is “strong,” at times even leaving the smell
on clothes and towels. Like the district court, though,
we do not think this evidence suffices to take this
case outside the default rule that smoking cannot be
considered a nuisance in a condo complex that allows
it. Indeed, Davis presented no evidence that her
neighbors had “unique” “smoking habits.” Davis, 349
F. Supp. 3d at 664.
3. Rate of Insurance. Davis next invokes the bylaw
that bars condo owners from doing anything “that
will increase the rate of insurance on the Condominium.” She alleges that smoking increases that rate
because it is a “fire hazard.” Like her first theory,
this claim fails because it ignores the overall context
of permissible smoking at Echo Valley. We can no
more read this provision to ban smoking than we can
read it to ban other fire hazards like cooking. Even if
we accepted the theory, Davis’s sole evidence in support—a board member’s personal opinion that smoking
raises insurance rates—does not suffice to withstand
summary judgment. Davis does not explain why this
board member may competently opine on actuarial
science.
4. Unlawful or Offensive Activity. Davis last contends that the Association failed to enforce the bylaw
provision prohibiting “unlawful or offensive activi-

App.22a
ties.” Her argument turns on the fact that marijuana
is unlawful, and on board-member opinions that
marijuana and cigarette smoke are offensive. This
claim fails for a procedural reason: Davis did not allege
it in her complaint, and she did not properly move to
amend her complaint to include it. Davis, 349 F. Supp.
3d at 661.
Parties who seek to raise new claims at the summary-judgment stage must first move to amend their
pleadings under Federal Rule of Civil Procedure
15(a) before asserting the claims in summary-judgment briefing. See Rafferty v. Trumbull County, 758 F.
App’x 425, 429 (6th Cir. 2018); Carter v. Ford Motor
Co., 561 F.3d 562, 567–69 (6th Cir. 2009); Tucker v.
Union of Needletrades, Indus., & Textile Emps., 407
F.3d 784, 788 (6th Cir. 2005). By that point, “a plaintiff has conducted discovery and has had the opportunity to amend the complaint and raise additional
theories.” West v. Wayne County, 672 F. App’x 535,
541 (6th Cir. 2016). But if the plaintiff raises the new
claims for the first time in the summary-judgment
briefing, it generally “subjects a defendant to ‘unfair
surprise,’ because the defendant has no opportunity
to investigate the claim during discovery.” M.D. ex
rel. Deweese v. Bowling Green Indep. Sch. Dist., 709
F. App’x 775, 778 (6th Cir. 2017) (citation omitted).
Davis’s failure to follow this rule dooms her
claim. Davis’s unlawful-or-offensive claim relies on a
different substance, different smokers, a different
time period, and a different bylaw. Her complaint did
not mention marijuana or this specific bylaw. Nor did
it challenge smoking other than from the Lamnins’
condo. The complaint instead alleged that other condos
in Davis’s building had “been designated non-smoking

App.23a
by their respective owners.” It was not until April
2018—after Davis had filed her amended complaint
and after the Lamnins had terminated Rule’s lease—
that Davis’s lawyer informed the Association that
someone else “in Ms. Davis’ building has started
smoking cigarettes and marijuana.” In short, Davis
never notified the Association and Casa Bella in the
correct way that she sought to bring this new claim
into the case.
Davis responds by framing her “claim” at a high
level of generality, suggesting that her “breach of
covenant” claim encompasses any violation of any
bylaw by any source. This expansive theory does not
suffice at the motion-to-dismiss stage, cf. Northampton
Rest. Grp. v. FirstMerit Bank, N.A., 492 F. App’x 518,
521–22 (6th Cir. 2012), let alone at the summaryjudgment stage, Tucker, 407 F.3d at 788. Davis also
argues that, unlike in the cases we cite, she raised
her new claim in her own summary-judgment motion, not just in her opposition to the other side’s motion. She does not explain why that distinction matters.
In both contexts, a defendant has “no opportunity to
investigate the claim during discovery.” Deweese,
709 F. App’x at 778. Davis finally suggests that the
district court should have granted her leave to amend.
But she “buried” her request for leave in a perfunctory
footnote in a summary-judgment brief that did not
cite Rule 15 or the relevant caselaw. See Pulte Homes,
Inc. v. Laborers’ Int’l Union of N. Am., 648 F.3d 295,
305 (6th Cir. 2011). The district court did not abuse
its discretion by finding this approach inadequate.
See id.
Up next is Davis’s tort claim for nuisance. In
Michigan, as noted, a nuisance is an “unreasonable

App.24a
interference with the use or enjoyment of . . . property.” Adams, 602 N.W.2d at 222. To be liable, a party
must have “possession and control over the property”
causing the nuisance. Sholberg v. Truman, 852 N.W.2d
89, 93 (Mich. 2014) (quoting Merritt v. Nickelson,
287 N.W.2d 178, 181 (Mich. 1980)). A landlord, for
example, generally does not face liability for a tenant’s
actions that create a nuisance because the landlord
does not possess or control the tenant’s property. See
Samuelson v. Cleveland Iron Mining Co., 13 N.W.
499, 502 (Mich. 1882) (Cooley, J.). This principle bars
Davis’s nuisance claim against the Association and
Casa Bella because they did not possess or control
the condo units in Davis’s building. As the district
court noted, “a condominium association is even farther
removed” from the conduct of its condo owners than
is a landlord from the conduct of its tenants. Davis,
349 F. Supp. 3d at 660.
Davis responds that this principle applies only
in “the absence of a contract duty on the part of the”
defendant and that the Association undertook the
contractual duty to enforce the bylaws. See Sholberg,
852 N.W.2d at 93–97. But we have already found
that her breach-of-covenant claims fail. Because Davis
did not establish a contract breach, she could not
show that Echo Valley or Casa Bella had any contractual ability to prevent the challenged conduct.
We end with two procedural claims. Davis argues
that the district court should have excluded a “sham
affidavit” from Mark Clor—the heating-and-cooling
contractor who noted that Davis’s unit does not share
a ventilation system with other units—because Clor
did not meet expert-witness requirements. See Fed. R.
Evid. 702. But the district court did not abuse its dis-

App.25a
cretion in concluding that Clor testified as a lay witness,
not an expert, based on his personal observations of
the basement’s open ductwork. Kelsor, 665 F.3d at 696.
And his testimony fell comfortably within the rules
for lay opinions because it was “rationally based on
[his] perception,” “helpful,” and “not based on scientific,
technical, or other specialized knowledge.” Fed. R.
Evid. 701; United States v. Manzano, __ F. App’x __,
2019 WL 5561389, at *3 (6th Cir. Oct. 29, 2019).
Contrary to Davis’s claim that Clor’s opinion would
require the “supernatural” ability to see through
walls, “[i]t took no special knowledge for Clor to
describe what was there in the basement to be seen.”
Davis, 349 F. Supp. 3d at 654. And Davis’s remaining
arguments—that Clor’s testimony was contradicted
by other evidence or based on limited knowledge—go
to weight, not admissibility.
Davis also says that the district court did not
give her an adequate opportunity to prove her claims
because it dismissed two of her discovery motions as
moot when it ruled for the Association and Casa
Bella. Davis is correct in one respect: “The general
rule is that summary judgment is improper if the
non-movant is not afforded a sufficient opportunity
for discovery.” Vance, 90 F.3d at 1148. But she is wrong
in another: She did not lack a sufficient opportunity
for discovery. The parties engaged in extensive discovery, and her single paragraph on this issue fails
to tell us what information she needed or why it was
relevant. Her conclusory claim falls well short of
establishing an abuse of discretion.
We affirm.

App.26a
OPINION AND ORDER OF THE UNITED STATES
DISTRICT COURT, EASTERN DISTRICT OF
MICHIGAN, SOUTHERN DIVISION DENYING
PLAINTIFF’S MOTION TO EXCLUDE MARK
CLOR’S TESTIMONY, DENYING PLAINTIFF’S
MOTION FOR SUMMARY JUDGMENT, GRANTING
DEFENDANTS’ MOTION FOR SUMMARY
JUDGMENT, DISMISSING CERTAIN DISCOVERY
MOTIONS, AND DISMISSING THE AMENDED
COMPLAINT WITH PREJUDICE
(NOVEMBER 7, 2018)
UNITED STATES DISTRICT COURT EASTERN
DISTRICT OF MICHIGAN SOUTHERN DIVISION
________________________
PHYLLIS DAVIS,

Plaintiff,
v.
ECHO VALLEY CONDOMINIUM ASSOCIATION,
CASA BELLA PROPERTY MANAGEMENT, INC.,
AND WANDA RULE, ,

Defendants.
________________________
Case Number 17-12475
Honorable David M. Lawson

App.27a
Plaintiff Phyllis Davis, an asthmatic, alleges
that defendant Echo Valley Condominium Association violated the Fair Housing Amendments Act when
it did not accommodate her sensitivity to secondhand
smoke by banning smoking throughout the condominium complex, including within private residences.
The plaintiff also brought claims under state statutory and common law. Davis has moved for summary
judgment on liability. Echo Valley and its former
property manager, Casa Bella Property Management,
Inc., also moved for summary judgment, arguing,
among other things, that the accommodation Davis
demands is unreasonable, particularly because smoking within one’s home is not illegal. Davis has not
identified evidence that creates a material question
of fact on all the elements of her claims. Therefore,
the Court will deny the plaintiff’s motion for summary judgment, grant the defendants’ motion for
summary judgment, and dismiss the amended complaint with prejudice.
Davis also contends that testimony from a heating
contractor about the furnace duct work in Davis’s
building should be rejected for a variety of reasons.
None of them have merit, so Davis’s motion to strike
his testimony will be denied as well.
I.
Plaintiff Phyllis Davis is a breast cancer survivor,
who has asthma and multiple-chemical sensitivity
disorder. She says that her medical conditions substantially interfere with her ability to breathe when
she is exposed to certain chemicals and irritants. A
major offender is cigarette smoke.

App.28a
Davis lives in Unit 214 in the Echo Valley subdivision, a condominium she purchased on 2004. Defendant Echo Valley Condominium Association is responsible for governing and managing eight buildings in
the Echo Valley subdivision. On November 10, 2014,
defendant Casa Bella Property Management, Inc.
contracted with Echo Valley to manage the property
within the subdivision. Casa Bella’s contract expired
at the end of 2017, and it no longer provides property
management services to Echo Valley.
The units at Echo Valley are subject to a master
deed and bylaws as amended, and to covenants, conditions, and restrictions found in those documents or
created based on them. The bylaws vest in Echo
Valley’s board of directors the power to make rules
“necessary for the administration of the affairs of the
Association,” including “[r]easonable regulations . . .
concerning the use of the common elements.” The
interior space of a condominium unit is not considered
a “common element” within the master deed’s definition. The bylaws prohibit “immoral, improper, unlawful or offensive activity” in the common elements and
the individual units. There is no ban on smoking at
the condominium complex.
Davis’s Unit 214 is one of four in the building. It
shares a common hallway and stairs with the three
other units: Unit 114, Unit 115, and Unit 215. The
parties dispute whether these spaces share a ventilation system that circulates air (including pollutants
and contaminants) among the connected units.
In 2012, former defendants Moisey and Ella Lamnin leased Unit 115 to defendant Wanda Rule. Rule
occupied the unit until December 31, 2017. During
Rule’s tenancy, the plaintiff complained that Rule

App.29a
and her guests regularly smoked tobacco and other
substances in Unit 115, which Davis says she could
smell from her unit. On April 3, 2018, plaintiff’s counsel
informed defense counsel that “someone in Ms. Davis’
building has started smoking cigarettes and marijuana.” When prompted for more detail as to the
source of the smoke, plaintiff’s counsel replied that he
was “investigating” the source, but he believed that
“it may be coming from Unit 114.”
Davis believes that the secondhand smoke has
exacerbated her health conditions, and, as a breast
cancer survivor, exposes her to an increased risk of
cancer and cancer-related problems. A doctor at
Davis’s medical care facility stated that exposure to
tobacco is detrimental to Davis’s health and increases
the risk of her suffering an asthma attack.
In addition to tobacco-related smoke, Davis has
complained that other smells and fumes were problematic. In a January 31, 2015 letter, Davis informed
her neighbor that the cooking smells emanating from
the neighbor’s unit “engulfed” her condo and she
“almost had an asthma attack.” She requested that
her neighbor open her window and turn the exhaust
fan on when frying or grilling. In that same letter,
the plaintiff complained about and demanded accommodations relating to slamming doors and FedEx
ringing the doorbells of other residents’ units.
Davis says that she has made the defendants
aware of her medical conditions on several occasions
and asked that the smoking issue be addressed. On
March 1, 2016, Davis sent Colleen O’Rourke, an agent
of Casa Bella, two emails that raised Davis’s concerns
about the smoking issue. In the first email, Davis
asked O’Rourke what can be done to make owners

App.30a
accountable for smoke that enters the shared ventilation system and stated that they should be able to
make smokers insulate their doors and vents. Davis
wrote that asthmatics suffer when forced to breathe
in second-and third-hand smoke toxins, and that
something had to be done about the smoking nuisance
that was affecting Davis’s breathing and causing constant coughing and near asthma attacks. In the
second email, Davis wrote that because of the heavy
smoke, she must turn the heat up and open the
windows in her condo so that she can breathe.
O’Rourke promptly responded to Davis’s emails and
explained that because the Echo Valley bylaws and
state law did not prohibit smoking in one’s home, she
did not believe anything could be done. The email
suggested that Davis’s complaint could be placed on
the condo board’s meeting agenda to see if the board
would like an attorney’s opinion on the matter.
Davis took up O’Rourke on her offer and asked
that her issue be placed on the upcoming board
meeting agenda, seeking to have smoking designated
a nuisance under the bylaws. She also suggested that
the owner of Unit 115 reseal the gaps in his doors
and reevaluate his vents. The item was taken up at
the March 15, 2016, board meeting. Board member
Tony Barker suggested that Davis and other aggrieved
residents cover their door base openings to prevent
the smell from coming into their units. The board
apparently questioned whether smoking may legally
be labeled a health nuisance and did not reach a
decision.
On March 29, 2016, O’Rourke sent a letter to the
Lamnins that mentioned complaints regarding the
heavy cigarette smoke emanating from Unit 115 and

App.31a
requested, on behalf of the condo board, that the
Lamnins assist in keeping the smell contained to
their unit. O’Rourke suggested that the odor could be
prevented from spreading throughout the building by
smoking outside on the balcony or deck, using air
purifiers, or insulating the entry door. O’Rourke
noted that there was no rule or regulation that
prohibited smoking in one’s home, but that it could
be considered a nuisance to those who do not smoke.
O’Rourke later testified that the board had agreed
that the letter would be sent with the wording that
Davis requested.
On February 21, 2017, the board held a meeting;
the minutes reflect that Davis requested that another
letter be sent to the owners of Unit 115 about the
heavy smoking. Davis apparently told the board that
the smoke was infiltrating common areas and other
units, and the smell was horrendous and was bringing
down the property value of the building.
On March 6, 2017, the Association installed a
fresh air system on Davis’s furnace ductwork to help
with the smoke problem. Mark Clor, the licensed
contractor who worked on Davis’s system, testified
that he installed the fresh air system to allow Davis’s
furnace to draw in air from the outside of the
building. Clor also averred that each unit has its own
furnace and ductwork. He testified at his deposition
that after the fresh air system was installed, Davis
told him that she thought it made a difference. He
said that he was personally familiar with the heating
and cooling system that services Davis’s unit as well
as the connected units and asserted that none of the
units draw air from or ventilate air into the other
connected units. He also stated that none of the con-

App.32a
nected units draw air from the common element
stairway, and that the ducts that vent air into the
common element stairway for heating purposes can
be closed.
On April 24, 2017, the plaintiff’s previous lawyer
sent the Lamnins a letter detailing her health issues
and asserting that by allowing their tenant(s) to
smoke, the Lamnins were in breach of the condominium documents and committing common law nuisance.
The lawyer demanded that the Lamnins take appropriate measures to assure that smoke will not continue to escape into Davis’s unit or the common element
areas of the building. He alternatively demanded
that the Lamnins request their tenant(s) immediately
to cease and desist from further smoking. Davis’s lawyer asked the Lamnins to contact him with a proposal
as to how they intended to eliminate the nuisance
and continuing violation of condominium documents.
The letter also was sent to Echo Valley, asserting
that it served as a “formal demand” that Echo Valley
take further action to provide relief, and warning
that Davis intended to take legal action if the matter
were not resolved.
On May 17, 2017, Davis’s former lawyer received
a response from the Lamnins that denied any breach
of condominium documents or the existence of a
nuisance. The Lamnins took issue with the idea that
any smoke emanating from their unit impaired or
aggravated Davis’s pre-existing health conditions,
noting that neither the condominium’s bylaws nor
Michigan law prohibited smoking inside one’s apartment. However, the Lamnins stated that Rule and
her husband had notified them that they were willing

App.33a
to purchase and use an air purifier to clean the air in
their unit.
Davis asserts that she discussed her asthma and
expressed her concern about the smoking issue at
multiple condo board meetings, and she made numerous verbal requests to O’Rourke and Echo Valley
board members to address the problem. She also
kept “smoke logs” beginning in May of 2017 documenting times when she smelled smoke. Former
board president Tony Barker testified that when he
was in Davis’s hallway, he could smell a “pretty
significant amount of smoke,” and that the smell was
worse in Davis’s building than in others. Barker
admitted, though, that he could not speak to the odor
in Davis’s unit as he was never inside.
After this litigation commenced, the Echo Valley
board proposed an amendment to the bylaws that
would prohibit smoking on the property. Under
Michigan law, the proposed amendment required twothirds approval from all co-owners eligible to vote.
The vote occurred on April 9, 2018, and the proposed
amendment did not pass.
On July 31, 2017, Davis filed a four-count complaint against Echo Valley, Casa Bella, and the
Lamnins, alleging violations of the federal Fair Housing
Amendments Act (FHAA) (Count I) and Michigan
Persons with Disabilities Civil Rights Act (PWDCRA)
(Count II), tortious nuisance (Count III), and breach
of covenants (Count IV). Two months later, Davis
filed her first motion for a preliminary injunction
against the three defendants. At a status conference
on November 7, 2017, the Court advised the plaintiff
to amend the complaint to include the Lamnins’
tenant. The next week, Davis filed an amended com-

App.34a
plaint that named the tenant, Wanda Rule, as a defendant. Davis then filed a second motion for preliminary
injunction against Ms. Rule. Davis did not serve the
lawsuit on Rule until December 6, 2017. She did not
serve notice of the preliminary injunction hearing on
Rule until January 2, 2018. On January 5, 2018, the
Court learned that Ms. Rule permanently moved out of
Unit 115 on December 31, 2017. Rule never responded
to the lawsuit, the parties agreed to resolve the
plaintiff’s motion for a preliminary injunction by
stipulation, and the Lamnins thereafter were dismissed from the case with prejudice.
II.
On March 6, 2017, heating and cooling contractor Mark Clor installed a fresh air system on the
plaintiff’s furnace ductwork. Clor owns MC Home
Heating & Cooling in Garden City, Michigan, and he
has been in the business for 35 years. Based on his
own observations and his experience working on Echo
Valley’s heating and cooling systems since 2008, Clor
testified that Davis’s condominium does not share
ventilation ductwork with any of the other three
units in her building. Because the basement is open
and all the furnaces and ducts were visible to him, he
could say that each unit has its own furnace and
ductwork that is separate from the others.
Characterizing Clor’s testimony as an expert
opinion, Davis argues that the Court should not let
him testify (and presumably not consider his evidence on the summary judgment motions) because
the defendants’ answer to the complaint says that
the ventilation systems are shared, which is a judicial admission foreclosing contrary evidence on the
point; Clor’s testimony is not based on sufficient facts

App.35a
or reliable methods (Clor did not examine a blueprint
and was unable to point to any documentation to
support his observation); the testimony is unreliable
because it was contradicted by statements made by
board members and was based on Clor’s recollection
from over a year ago; and the defendants did not
furnish a timely expert report.
None of these arguments is persuasive. First,
Davis fails to recognize that the defendants filed an
answer to the amended complaint, which essentially
nullifies its original answer as a pleading in the case.
“‘Generally, amended pleadings supersede original
pleadings.’” Braden v. United States, 817 F.3d 926,
930 (6th Cir. 2016) (quoting Hayward v. Cleveland
Clinic Found., 759 F.3d 601, 617 (6th Cir. 2014)).
Davis relies on Pennsylvania Railroad Company v.
City of Girard, 210 F.2d 437, 440 (6th Cir. 1954), in
which the court noted that “pleadings withdrawn or
superseded by amended pleadings are admissions
against the pleader in the action in which they were
filed.” That may be true, but those “admissions” are
evidentiary admissions, not judicial admissions. See
ibid. (noting that the statement in the original crosspetition “stood admitted on the pleadings until the
filing of the amended cross-petition,” whereupon the
statement in the original pleading became “an admission against interest”). An evidentiary admission
does not preclude contrary proof to dispute a fact,
and it certainly would not serve as a bar to Clor’s
testimony. See Cadle Co. II v. Gasbusters Prod. I Ltd.
P’ship, 441 F. App’x 310, 313 (6th Cir. 2011).

Second, Davis’s several objections based on the
idea that Clor will furnish expert testimony are not
on solid ground. When Clor testified that the ventila-

App.36a
tion systems were separate, he was relating his own
observation. He testified:
Q.

Have you ever looked at a blueprint or something like that to determine how duct work is
laid out in any of the buildings?

A.

No.

Q.

So you’ve never seen a blueprint or anything
that resembles a blueprint, a drawing, a sketch
—

A.

No.

Q.

— of Echo Valley?

A.

No.

Q.

How do you determine the extent of the HVAC
system in each of these different units that
you’ve applied a fresh-air intake to, just a visual
inspections or—

A.

A visual. You can go in the basement. It’s an
open basement.

Q.

Okay.

A.

All the units are next to each other. All the duct
work is in the basement. You can trace it
visually. That’s all you can — you can see where
it goes visually. Each unit has its own duct
system.

Q.

Okay. And so aside from the visual inspection,
you haven’t inspected any other duct work,
necessarily, outside of what was in the basement
—

A.

No.

App.37a
Q.

— of those units? And no one’s provided you
with information of the layout of the duct work?

A.

No.

Q.

Is that pretty common in your field, that you
wouldn’t get a blueprint?

A.

Yes.

Q.

And you would just fix it as you saw it.

A.

Yes.

Q.

Is there any particular methodology you would
use to determine the extent of the ventilation
system aside from a visual inspection?

A.

You’re going to have to say it — I didn’t understand what you’re asking.

Q.

Is there a well-known method for inspecting
ventilation systems with a series of steps, a procedure to follow, that you’re aware of?

A.

As far as leakage or . . .

Q.

As far as understanding the extent of the system,
inlets, outlets. You can say a yes or no.
Ms. Butler. If you know.

A.

I — yeah, I don’t know.

Mark Clor dep. at 31-33, ECF No. 74-4, PageID.2143.
Clor’s testimony was based on his personal knowledge of what he saw and would be admissible as
such. See Fed. R. Evid. 602.
Nonetheless, one might characterize Clor’s testimony — that the four units in Davis’s building have
separate ventilation systems — as an opinion. But it
is not an “expert” opinion subject to the special eviden-

App.38a
tiary and discovery rules governing expert witnesses.
“Expert” testimony consists of opinions or commentary
grounded in “specialized knowledge,” that is, knowledge that is “beyond the ken of the average juror.”
See United States v. Rios, 830 F.3d 403, 413 (6th Cir.
2016), cert. denied sub nom. Casillas v. United States,
137 S. Ct. 1120 (2017), and cert. denied, 138 S. Ct. 2701
(2018); see also Fed. R. Evid. 702. It took no special
knowledge for Clor to describe what was there in the
basement to be seen. The “average juror” would be
capable of counting four furnaces, four heat runs,
and four cold air return systems in the open basement and see that none of them connected to the
others. Clor has specialized knowledge as a heating
contractor of 35 years. But he did not have to employ
that special knowledge in this case.
Evidence Rule 701 authorizes non-expert witnesses
to give opinions that are “(a) rationally based on the
witness’s perception; (b) helpful to clearly understanding the witness’s testimony or to determining a
fact in issue; and (c) not based on scientific, technical, or other specialized knowledge.” Fed. R. Evid.
701. Clor’s testimony touches all these bases. His
description of the heating systems in Davis’s building
“result[ed] from a process of reasoning familiar in
everyday life, [instead of] a process of reasoning
which can be mastered only by specialists in the
field.” United States v. White, 492 F.3d 380, 401 (6th
Cir. 2007) (internal quotation marks and citation
omitted).
Davis’s objections to Clor’s evidence based on
rules governing expert witnesses are misplaced.

Third, Clor’s evidence is not rendered unreliable
by other evidence that contradicts it. Other board

App.39a
members apparently gave their opinions that some of
the units within a building shared ventilation systems.
That testimony, however, merely establishes a fact
dispute. It does not render Clor’s testimony inadmissible, even if it is characterized as expert testimony.
See Daubert v. Merrell Dow Pharmaceuticals., Inc.,
509 U.S. 579, 595 (1993) (noting that those matters
are best reserved for “[v]igorous cross-examination”
and “presentation of contrary evidence” to the jury”).

Fourth, Davis incorrectly insists that the defendants’ pretrial disclosure of Clor’s evidence was
inadequate. Even if Clor’s testimony can be characterized as opinion evidence under Evidence Rule 702,
Clor was not required to prepare and sign a report
because he was not “retained or specially employed
to provide expert testimony in the case” nor did his
“duties as the [defendants’] employee regularly involve
giving expert testimony.” Fed. R. Civ. P. 26(a)(2)(B).
Where a witness’s “opinion testimony arises not from
his enlistment as an expert but, rather, from his
ground-level involvement in the events giving rise to
the litigation . . . he falls outside the compass of Rule
26(a)(2)(B).” Downey v. Bob’s Discount Furniture
Holdings, Inc., 633 F.3d 1, 6 (1st Cir. 2011) (citing
Fielden v. CSX Transp., Inc., 482 F.3d 866, 869 (6th
Cir. 2007)). Clor plainly qualifies as an “on-the-scene
expert” whose information was acquired from personal observations during his maintenance work at
Echo Valley. He therefore was not required to prepare a written report under Rule 26(a)(2)(B).
Moreover, the defendants satisfied their disclosure obligation under Rule 26(a)(2)(C) when they
filed their expert witness list on March 15, 2018.
Their disclosure states that “Mark Clor will testify to

App.40a
the condition of the HVAC system located in Phyllis
Davis’ and neighboring units. Mark Clor is expected
to testify that that the Davis Unit does not share a
ventilation system with the other Connected Units
and that each Unit has its own furnace and ductwork. Mark Clor can testify to installation of fresh
air system in Ms. Davis’ Unit.” The defendants
satisfied the applicable pretrial disclosure requirements.
Davis’s motion to exclude Mark Clor’s testimony
will be denied.
III.
Davis and the defendants have filed cross motions
for summary judgment on all of the liability issues.
The fact that they have filed cross motions does not
automatically justify the conclusion that there are no
facts in dispute. Parks v. LaFace Records, 329 F.3d
437, 444 (6th Cir. 2003) (“The fact that the parties have
filed cross-motions for summary judgment does not
mean, of course, that summary judgment for one side
or the other is necessarily appropriate.”). Instead,
the Court must apply the well-recognized summary
judgment standards when deciding such cross motions: the Court “must evaluate each motion on its
own merits and view all facts and inferences in the
light most favorable to the nonmoving party.” Westfield
Ins. Co. v. Tech Dry, Inc., 336 F.3d 503, 506 (6th Cir.
2003).
Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). When
reviewing the motion record, “[t]he court must view

App.41a
the evidence and draw all reasonable inferences in
favor of the non-moving party, and determine ‘whether
the evidence presents a sufficient disagreement to require submission to a jury or whether it is so onesided that one party must prevail as a matter of
law.’” Alexander v. CareSource, 576 F.3d 551, 557-58
(6th Cir. 2009) (quoting Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 251-52 (1986)). “The court need
consider only the cited materials, but it may consider
other materials in the record.” Fed. R. Civ. P. 56(c)(3).
“The party bringing the summary judgment motion
has the initial burden of informing the district court
of the basis for its motion and identifying portions of
the record that demonstrate the absence of a genuine
dispute over material facts.” Id. at 558. (citing Mt.

Lebanon Personal Care Home, Inc. v. Hoover Universal,
Inc., 276 F.3d 845, 848 (6th Cir. 2002)). “Once that
occurs, the party opposing the motion then may not
‘rely on the hope that the trier of fact will disbelieve
the movant’s denial of a disputed fact’ but must
make an affirmative showing with proper evidence in
order to defeat the motion.” Ibid. (quoting Street v.
J.C. Bradford & Co., 886 F.2d 1472, 1479 (6th Cir.
1989)).
“[T]he party opposing the summary judgment
motion must do more than simply show that there is
some ‘metaphysical doubt as to the material facts.’”
Highland Capital, Inc. v. Franklin Nat’l Bank, 350
F.3d 558, 564 (6th Cir. 2003) (quoting Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
586 (1986)) (internal quotation marks omitted). A
party opposing a motion for summary judgment must
designate specific facts in affidavits, depositions, or
other factual material showing “evidence on which the

App.42a
jury could reasonably find for the plaintiff.” Anderson,
477 U.S. at 252. If the non-moving party, after sufficient opportunity for discovery, is unable to meet her
burden of proof, summary judgment is clearly proper.
Celotex Corp. v. Catrett, 477 U.S. 317, 322-23 (1986).
Irrelevant or unnecessary factual disputes do not
create genuine issues of material fact. St. Francis
Health Care Centre v. Shalala, 205 F.3d 937, 943 (6th
Cir. 2000). A fact is “material” if its resolution affects
the outcome of the lawsuit. Lenning v. Commercial
Union Ins. Co., 260 F.3d 574, 581 (6th Cir. 2001).
“Materiality” is determined by the substantive law
claim. Boyd v. Baeppler, 215 F.3d 594, 599 (6th Cir.
2000). An issue is “genuine” if a “reasonable jury could
return a verdict for the nonmoving party.” Henson v.
Nat’l Aeronautics & Space Admin., 14 F.3d 1143, 1148
(6th Cir. 1994) (quoting 477 U.S. at 248).
A.
Davis argues that she meets the criteria for disability under the FHAA and PWDCRA. She contends
that the defendants, aware of her disability, denied
her reasonable accommodation when they refused to
prohibit smoking at Echo Valley, and therefore she is
entitled to a judgment on liability as a matter of law.
Defendants Echo Valley and Casa Bella contend that
Davis has failed to offer evidence on several elements
of these claims. But the key question is whether the
accommodation she demands — banning smoking
throughout the Echo Valley complex — is reasonable.
As a matter of law, it is not.
The Fair Housing Amendments Act prohibits
discriminating “against any person . . . in the provision
of services or facilities in connection with [a] dwelling,

App.43a
because of a handicap of . . . that person. . . . ” 42 U.S.C.
§ 3604(f)(2)(a). The PWDCRA provides a “parallel[]”
prohibition, and claims under that statute and the
FHAA are analyzed similarly. Bachman v. Swan
Harbour Ass’n, 252 Mich. App. 400, 417, 653 N.W.2d
415, 428 (2002). The PWDCRA prohibits associations
“in connection with a real estate transaction . . . [from]
refus[ing] to make reasonable accommodations in rules,
policies, or services, when the accommodations may
be necessary to afford the person with a disability
equal opportunity to use and enjoy residential real
property.” Mich. Comp. Laws §§ 37.1103, 37.1506a(1)
(b). The FHAA defines “discrimination [to] include[]
. . . a refusal to make reasonable accommodations in
rules, policies, practices, or services, when such
accommodations may be necessary to afford such person equal opportunity to use and enjoy a dwelling. . . . ”
42 U.S.C. § 3604(f)(3)(B). To prove a reasonable-accommodation discrimination claim, a plaintiff must produce
evidence that (1) she suffers from a disability (as the
Act defines it); (2) she requested a reasonable accommodation or modification of the “rules, policies, practices, or services” relating to the use or enjoyment of
a dwelling; (3) the housing provider refused the
accommodation; and (4) the housing provider “knew
or should have known of the disability at the time of
the refusal.” Hollis v. Chestnut Bend Homeowners
Ass’n, 760 F.3d 531, 541 (6th Cir. 2014).
The reasonable-accommodation element in turn
has three “operative” components of its own: “‘equal
opportunity,’ ‘necessary,’ and ‘reasonable.’” Anderson
v. City of Blue Ash, 798 F.3d 338, 360 (6th Cir. 2015)
(quoting Smith & Lee Assocs. v. City of Taylor, Mich.,
102 F.3d 781, 794 (6th Cir. 1996)). The court of appeals

App.44a
has explained that the first two, closely-related elements invoke a causation inquiry, requiring a plaintiff to “show that, but for the accommodation, they
likely will be denied an equal opportunity to enjoy
the housing of their choice.” Smith & Lee Assocs.,
102 F.3d at 795 (citations omitted). Stated differently,
“[e]qual use and enjoyment of a dwelling are achieved
when an accommodation ameliorates the effects of
the disability such that the disabled individual can
use and enjoy his or her residence as a non-disabled
person could.” Anderson, 798 F.3d at 361 (citations
omitted).
To establish that the requested accommodation
is reasonable, a plaintiff must show that it “imposes no
‘fundamental alteration in the nature of the program’
or ‘undue financial and administrative burdens.’”
Howard v. City of Beavercreek, 276 F.3d 802, 806 (6th
Cir. 2002) (quoting Smith & Lee Assocs, 102 F.3d at
794)). Courts must “balance the burdens imposed on
the defendant by the contemplated accommodation
against the benefits to the plaintiff.” Groner v. Golden
Gate Gardens Apartments, 250 F.3d 1039, 1044 (6th
Cir. 2001) (citing Smith & Lee Assocs., 102 F.3d at 795).
In striking that balance, courts consider not only the
costs of the accommodation, but also its “functional
and administrative aspects” as well. Ibid.
On the reasonable-accommodation element, both
sides here focus on the demands by Davis’s attorney
in his April 24, 2017 letter. Those demands escalated
from “ensur[ing] that any further smoking in Unit
#115 will not escape from Unit #115 into [Davis’s]
unit or the common element areas of the building” to
requiring “the tenants of Unit #115 immediately [to]
cease and desist from further smoking in Unit #115

App.45a
and/or the common elements of the shared building”;
and later Davis expanded that request to cover the
entire condominium complex.
It is not at all clear that such an accommodation
— as extreme as it is — would confer upon Davis the
use and enjoyment of her residence in the same
manner as a non-disabled person, that is, a person
without respiratory hypersensitivities. Davis believes
the first two closely related elements are met because
without a prohibition on smoking, she does not have
the equal opportunity to enjoy living in her unit and
breathing without impairment. However, she previously has complained of non-tobacco smell aggravating
her respiratory conditions. In January 2015, the
plaintiff complained that the smell of her neighbor’s
cooking nearly caused her an asthma attack. The evidence Davis offers on this point is mostly anecdotal
and conclusory. And banning smoking would not
“ameliorate[] the effects of [her] disability.” Anderson,
798 F.3d at 361 At least one federal court has concluded that in cases involving exposure to certain
chemicals, including tobacco smoke, expert testimony
is necessary to demonstrate “a direct linkage between
the proposed accommodation and the equal opportunity to which a person with a handicap is entitled.”
Matarese v. Archstone Pentagon City, 761 F. Supp. 2d
346, 364-65 (E.D. Va. 2011). In Matarese, the plaintiff, who suffered from chemical sensitivities to paint
fumes, tobacco smoke, and mold, alleged that the
defendants violated section 3604(f)(3)(B) when they
declined to replace weather stripping around her
apartment door to block smoke from entering. Id. at
356. In granting the defendants’ motion for summary
judgment on the reasonable accommodation claim, the

App.46a
court explained that to meet her burden, the plaintiff
must have shown through expert testimony that the
proposed accommodation did “not just ameliorate
the burdens shared by all individuals exposed to
chemicals.” Id. at 365. The court found that the affidavit of the plaintiff’s doctor was insufficient because
it merely stated that the proposed accommodation
would allow her to avoid exposure to smoke and
ameliorate any negative impact on her chemical
sensitivities. Ibid. (“Plaintiffs have failed to meet
their burden in establishing the requisite elements of
their claim because this affidavit does not state that
the proposed accommodations will ameliorate Ms.
Matarese’s handicap specifically, such that she would
be afforded equal opportunity in housing, as compared
to similarly situated individuals.”).
Similarly, Davis’s reliance on her doctor’s letter
falls short of establishing that banning smoking will
in fact ameliorate her respiratory conditions. In a
letter dated June 22, 2017 — approximately two
months after the plaintiff requested accommodation
from the Lamnins and Echo Valley — Dr. Marisa
Abbo, Medical Director of Covenant Community Care,
stated:
Ms. Davis has a history of breast cancer,
asthma, and multiple chemical sensitivity
disorder which significantly interfere with
her ability to breathe.
. . . Due to Ms. Davis’ condition, exposure to
tobacco smoke is detrimental to her health
and increases the risk of Ms. Davis suffering
an adverse event such as an asthma attack.
I urge you to grant Ms. Davis accommodation request to ban smoking in the common

App.47a
areas and make the surround[ing] units nonsmoking. This accommodation is necessary to
ameliorate the conditions of Phyllis Davis’s
disability.
Abbo Letter, ECF No. 20-2, PageID.253. The Matarese
court squarely rejected this type of conclusory
opinion as insufficient to show that the proposed
accommodation ameliorated the plaintiff’s handicap
specifically, and not just the burden shared by all
individuals exposed to smoke. The plaintiff’s complaints about other smells exacerbating her condition
does not help her case. Without more, the plaintiff
has not shown the accommodation she requested was
necessary to afford her equal opportunity to enjoy
her unit.
More problematic is the reasonableness element.
Davis argues that banning smoking throughout the
complex is cost free. That argument, however, ignores
the functional and administrative difficulties of such
a measure. Davis demands that the Echo Valley
Association Board adopt a position that the law does
not permit. It is not illegal for an adult property
owner to smoke in his or her own home. As noted
earlier, nothing in the Echo Valley condominium documents prohibits smoking anywhere in the complex.
Michigan’s common law allows property owners to
impose covenants that restrict a landowner’s use of
his or her property, but the landowner (or a predecessor in interest) must consent to the restriction.
Eveleth v. Best, 322 Mich. 637, 641-42, 34 N.W.2d
504, 505 (1948) (holding that a restrictive covenant,
which was not imposed by a common grantor of all
the lots in the development, was not valid against an

App.48a
owner absent his consent or the consent of his predecessors in interest).
A person who purchases a condominium becomes
bound by the rules and restrictions found in the condominium documents (master deed, bylaws, articles
of incorporation, etc.) in effect at the time of the
purchase. See Yarmouth Commons Ass’n v. Norwood,
299 F. Supp. 3d 862, 86869 (E.D. Mich. 2017). And
condominium documents may be amended by the
board from time to time without the co-owners’ consent if the amendments do not materially alter or
change the co-owners’ rights. Mich. Comp. Laws
§ 559.190(1). However, a condominium association
may not “expand [a] restriction or impose a new
burden on the lot owners with less than unanimous
consent under the guise of interpreting the restriction.”
Conlin v. Upton, 313 Mich. App. 243, 265, 881 N.W.2d
511, 525 (2015) (citing Golf View Improvement Ass’n.
v. Uznis, 342 Mich. 128, 130-131, 68 N.W.2d 785, 786
(1955)). And an association may not amend condominium documents outright without “the consent of
not less than 2/3 of the votes of the co-owners and
mortgagees” when the amendment would materially
alter the co-owners’ rights. Mich. Comp. Laws § 559.
190(2).
Echo Valley was well aware of these legal limitations when it presented for a vote of the co-owners a
proposal to ban smoking throughout the complex, as
Davis asked. The proposal did not pass. In the wake
of that decision, it is not reasonable to impose upon
Echo Valley the administrative burden of implementing a use restriction upon co-owners in a way that
violates the law. Imposing a smoking ban on all Echo
Valley co-owners, the effect of which would be to

App.49a
restrict them from engaging in a lawful activity on
their own property, cannot be accomplished in this
case without a violation of existing law. For that
reason alone, Davis’s accommodation demand is not
reasonable.
Davis’s demands have not been ignored. The
Association has gone to some lengths to accommodate
her concerns, from installing a fresh air filtration
system on the plaintiff’s furnace ductwork, to administering a complex-wide referendum on her smoking
ban proposal. Changing the entire complex from a
smoking-permitted to a smoke-free development without the proper consent that Michigan law requires,
however, is a bridge too far. Because Davis has not
shown that she requested a “reasonable accommodation,” her FHAA and PWDCRA claims fail as a
matter of law.
B.
The defendants contend that Davis’s private nuisance claim in Count III of the amended complaint
must be dismissed. In Michigan, a private nuisance,
in general terms, consists of an interference with the
use and enjoyment of land. Henry v. Dow Chem. Co.,
484 Mich. 483, 533, 772 N.W.2d 301, 328 (2009). The
Michigan Supreme Court has observed that nuisance
claims have addressed a variety of types of harm to
landowners, leading to confusion and imprecision in
defining the elements of the cause of action. Adkins v.
Thomas Solvent Co., 440 Mich. 293, 303, 487 N.W.2d
715, 719-20 (1992). However, “the gist of a private
nuisance action is an interference with the occupation or use of land or an interference with servitudes
relating to land.” Id. at 303, 487 N.W.2d at 720.
Pollution of the air by the release of contaminants

App.50a
can constitute a private or public nuisance. 4 Restatement Torts, 2d, § 832, p. 142.
To prove a private nuisance, the plaintiff must
show that (1) she has property rights that were interfered with, (2) the invasion results in significant
harm, (3) the defendant’s conduct was the legal cause
of the invasion, and (4) the invasion was either (i)
intentional and unreasonable or (ii) negligent, reckless,
or ultrahazardous. Adkins, 440 Mich. at 304, 487
N.W.2d at 720.
For a defendant to be liable for a private nuisance,
however, he or she “must have possession or control
of the land.’” Sholberg v. Truman, 496 Mich. 1, 6, 852
N.W.2d 89, 92 (2014) (quoting Wagner v. Regency
Inn Corp., 186 Mich. App. 158, 163, 463 N.W.2d 450
(1990)). Although Count III of the amended complaint is brought against all the defendants, it appears
to have no applicability now that Ms. Rule (the smoker)
has moved out of the neighboring unit and the Lamnins have been dismissed from the suit. The remaining
defendants cannot be held liable. Under Michigan
law, a landlord cannot be found responsible for a
nuisance that his tenant creates. Id. at 8-9, 852 N.W.2d
at 93 (citing Samuelson v. Cleveland Iron Mining
Co., 49 Mich. 164, 171, 13 N.W. 499, 502 (1882)). The
reason is that “[a] party who has no control over the
property at the time of the alleged nuisance cannot
be held liable therefor.” Id. at 13, 852 N.W.2d at 9596. It logically follows that a condominium association is even farther removed from liability for the
legal conduct of a co-owner within his or her own unit,
when no bylaw has been violated. Here, the Association has no control over other residents’ decision to
smoke in their units as smoking is not prohibited by

App.51a
the condominium bylaws. Absent an amendment to
the bylaws, which the owners already have rejected,
the Association cannot be considered the legal cause
of the “smoking nuisance.” Contrary to the plaintiff’s
position, it is of no significance that the Association
has the power to modify the ventilation system —
assuming it is shared — as individual residents are the
source of the alleged injury. Because no other individual owners or tenants are named in this suit, this
claim fails as a matter of law. Morgan v. Nickowski,
No. 334668, 2017 WL 5759789, at *5 (Mich. Ct. App.
Nov. 28, 2017) (finding nuisance claim “meritless on
its face” where landlord did not have “any hand in
creating the conditions that led to the alleged nuisance.”).
Count III of the amended complaint must be dismissed as a matter of law.
C.
In Count IV of the amended complaint, Davis alleges that the defendants breached their contractual
duties under Echo Valley’s governing documents to
enforce the annoyance and nuisance, insurance rate,
and safe, clean, and sanitary provisions of the bylaws.
In her motion, Davis also seeks to allege a failure to
enforce the “unlawful and offensive activity” provision. That latter claim was not pleaded in the amended
complaint, Davis has not sought another amendment, and therefore that claim is not properly before
the Court. See Carter v. Ford Motor Co., 561 F.3d 562,
568 (6th Cir. 2009); Tucker v. Union of Needletrades,
Indus. & Textile Emps., 407 F.3d 784, 787-88 (6th Cir.
2007).

App.52a
Under Michigan law, condominium association
bylaws are considered a “binding contract” between
unit owners and the association. Tuscany Grove Ass’n
v. Gasperoni, No. 314663, 2014 WL 2880282, at *3
(Mich. Ct. App. June 24, 2014) (reasoning that “[t]he
Association was formed as a nonprofit corporation.
‘The bylaws of a corporation . . . constitute a binding
contract between the corporation and its shareholders.’
The Bylaws in the case are such a contract.”) (quoting
Allied Supermarkets, Inc. v. Grocer’s Dairy Co., 45
Mich. App. 310, 315, 206 N.W.2d 490 (1973), aff’d 391
Mich. 729, 219 N.W.2d 55 (1974)); see also Tuscany
Grove Ass’n v. Peraino, 311 Mich. App. 389, 393, 875
N.W.2d 234, 236 (2015) (“Condominium bylaws are
interpreted according to the rules governing the interpretation of a contract.”). Echo Valley’s bylaws charge
the board of directors with the responsibility for
“enforc[ing] the provisions of the Condominium Documents,” including the master deed, the bylaws, the
articles of incorporation, rules and regulations adopted
by the Association, and state law. Article I, Section
4(a)(11), ECF No. 75-3, PageID.2232.
The crux of this count of Davis’s amended complaint is based on Article VI of the bylaws, which places
certain restrictions on co-owners’ use and enjoyment
of their units, such as:
Section 4. No immoral, improper, unlawful
or offensive activity shall be carried on in
any apartment or upon the common elements, limited or general, nor shall anything be done which may be or become an
annoyance or a nuisance to the co-owners of
the Condominium, nor shall any unreasonably
noisy activity be carried on in any unit or on

App.53a
the common elements. No co-owner shall do
or permit anything to be done or keep or
permit to be kept in his apartment or on the
common elements anything that will increase
the rate of insurance on the Condominium
without the written approval of the Association and each co-owner shall pay to the
Association the increased cost of insurance
premiums resulting from any such activity
or the maintenance of any such condition.
Section 15. Each co-owner shall maintain
his apartment and any limited common elements appurtenant thereto for which he has
maintenance responsibility in a safe, clean
and sanitary condition.

Id. at PageID.2241-42, 2245. Davis alleges that the
defendants breached their contractual duty to enforce
these provisions to eliminate offensive conduct, specifically smoking.
1.
Davis has not offered any evidence that smoking
constitutes an activity that will raise insurance rates,
except for the deposition testimony of board member
Louise Genovese, who admitted that it is her position
that smoking marijuana “could increase the rate of
insurance.” Genovese dep. at 27 (ECF No. 64-2, Page
ID.1833). There is nothing else in the record to support Davis’s claim that smoking in fact increases the
rate of insurance. The board cannot be faulted for not
instituting a no-smoking policy based on the
possibility of increased insurance rates. And the
plaintiff has not identified any other breach of the

App.54a
board’s contractual duty to enforce the restrictions in
the condominium documents.
2.
Similarly, in support of the idea that the board
failed to enforce the requirement in section 15 of
Bylaw Article VI, Davis offers only Ms. Genovese’s
testimony that she believed marijuana and cigarette
smoke to be both unsafe and unclean and that its
distribution through the vents violates Section 15.
Although “the author of a party admission need not
have personal knowledge of the statements contained in
the party admission,” Weinstein v. Siemens, 756 F.
Supp. 2d 839, 853 (E.D. Mich. 2010) (Borman, J.), the
plaintiff points to no evidence that cigarette smoke
has infiltrated the ventilation system of her unit, or
that any of the units have not been maintained in a
safe, clean, or sanitary condition. In fact, Davis has
not definitively identified any particular source of
secondhand smoke at Echo Valley. On April 4, 2018,
plaintiff’s counsel represented to defense counsel
that they were “currently investigating the source of
the smoke, and believe it may be coming from unit
114.” Apr. 4, 2018 email, ECF No. 75-25, PageID.2403.
No updated information since has been presented to
the Court. Without more, the defendants cannot be
held liable for failing to enforce a restriction on an
unknown co-owner.
3.
Finally, Davis has not established that smoking
at Echo Valley constitutes an “annoyance or a nuisance”
that the bylaws prohibit. The bylaws do not define
those terms; however, the parties apparently agree
that tort principles supply the appropriate meaning.

App.55a
Davis relies exclusively on the deposition testimony
of board members Genovese and Williams to support
her position, but a closer reading of that testimony
shows these board members did not admit violations
of the bylaws, as the plaintiff attempts to represent.
Genovese testified that cigarette smoke “can be” considered a nuisance for those who do not smoke, and
Williams answered in the affirmative when asked if
cigarette smoke annoyed her. But those acknowledgments about smoking in the abstract alone do not
satisfy the plaintiff’s burden.
Although Michigan courts have not addressed
whether infiltration of secondhand smoke can be considered a nuisance, several courts around the country
have weighed in on the issue. Although Davis did not
cite any supporting authority in her summary judgment motion papers, she did refer in her motion for
preliminary injunction to five decisions in support of
her argument that cigarette smoke might be considered a private nuisance. None of them are particularly helpful to her position, since those decisions
depend on the facts peculiar to each case, and Davis
has not offered similar or analogous facts on this
record.
The first case, Chauncey v. Bella Palermo Homeowners Association, Case No. 30-201100461681 (Cal.
Sup Ct. June 11, 2013), is a not a reported opinion,
but a judgment on a jury verdict and a special
verdict form that found for the plaintiffs after a trial.
The case provides no guidance, as there is no recitation of the facts or indication that this case actually
supports the plaintiff’s position.
The second case, Merrill v. Bosser, Case No. 054239 COCE 53 (Broward Cty. Cir. Ct., June 29,

App.56a
2005), is a memorandum opinion and judgment of a
trial court finding that “excessive secondhand smoke”
that infiltrated the plaintiff’s condominium unit
amounted to a trespass, private nuisance, and a
breach of the covenant of quiet enjoyment. Judgment
was rendered not against the condominium board,
but against the plaintiff’s upstairs neighbor. The
court acknowledged that “common secondhand smoke
which is customarily part of everyday life would not
be an actionable trespass.” Id. at 3. However, the
court described quantifiable evidence of the “excessive”
amount of smoke infiltrating the units of the plaintiff
and his other neighbors that took the case beyond
garden-variety inconvenience and annoyance. Davis
has not offered such evidence here.
The plaintiff also cited Heck v. Whitehurst Co.,
No. L-03-1134, 2004 WL 1857131 (Ohio Ct. App. Aug.
20, 2004), which is not a nuisance case. There, the
plaintiff-tenant complained that “cigarette smoke
[was] entering into [his] bedroom and [his] bathroom
in extreme volumes” from his neighbor’s apartment
infiltrated his unit. Id. at *1. The plaintiff testified
“that the problem was so bad that he had to have his
clothes professionally dry cleaned, had to leave his
windows open in the middle of winter and had to
sleep in the living room.” Id. at *5. The court found
that the weight of the evidence at trial established
that the defendant-landlord breached his duty to
keep the apartment in a fit and habitable condition
by not repairing the window, which allowed smoke to
enter from the apartment below. Id. at *6.
Davis also cited Upper East Lease Assocs, LLC
v. Cannon, No. 444409/09, 2011 WL 182091, at * 1
(N.Y. Dist. Ct. Jan. 20, 2011), but that case is inap-

App.57a
posite because the addendum to the offending tenant’s
lease specifically addressed the issue of secondhand
smoke and required tenants to agree to “take all
measures necessary to minimize second-hand smoke
from emanating from Tenant’s apartment and
infiltrating the common areas of the Building and/or
into other apartments in the building.” No such duty
emanates from the condominium documents in this
case. Likewise, Christiansen v. Heritage Hills 1 Condo.
Owners Ass’n, Case No. 06CV1256 (Colo. Dist. Ct.
Nov. 7, 2006), provides no support for the plaintiff’s
position here. Although the court acknowledged that
the smell from secondhand smoke constituted a
nuisance under the circumstances of that case, the
decision addressed the authority under Colorado law
of a condominium to amend its bylaws to ban smoking
upon the vote of an appropriate number of co-owners.
Id. at 7-8. As noted above, Echo Valley held a vote on
a smoking ban, but the measure was defeated.
Several other courts have concluded that smoking
cigarettes in the privacy of one’s own home does not
amount to an unreasonable interference with a neighbor’s use of his or her property. In Ewen v. Maccherone,
32 Misc.3d 12, 927 N.Y.S.2d 274 (N.Y. App. Div.
2011), for instance, the court concluded the plaintiffs
failed to state a cause of action for private nuisance
because, “[c]ritically, defendants were not prohibited
from smoking inside their apartment by any existing
statute, condominium rule or bylaw. Nor was there
any statute, rule or bylaw imposing upon defendants
an obligation to ensure that their cigarette smoke did
not drift into other residences.” The plaintiffs alleged
that their neighbors’ excessive smoking infiltrated
the plaintiffs’ walls, causing them personal injuries,

App.58a
and that the condition was exacerbated by buildingwide ventilation. Id. at 13, 927 N.Y.S.2d at 275. The
court expressed sympathy for the plaintiffs’ apparent
discomfort, but it could not avoid the conclusion that
“the law of private nuisance would be stretched beyond
its breaking point if we were to allow a means of
recovering damages when a neighbor merely smokes
inside his or her own apartment in a multiple
dwelling building.” Id. at 15, 927 N.Y.S.2d at 277.
The court accepted the premise that secondhand smoke
and the odors it created are “annoying and uncomfortable to reasonable or ordinary persons.” Ibid. But
the court relegated that unpleasantness to “but one
of the annoyances one must endure in a multiple
dwelling building.” Ibid. (citations omitted). The court
also “recognize the significant health hazards to nonsmokers inherent in exposure to secondhand smoke.”
Ibid. (citations omitted). But the court concluded that
“in the absence of a controlling statute, bylaw or rule
imposing a duty, public policy issues militate against
a private cause of action under these factual circumstances for secondhand smoke infiltration.” Ibid.
(citations omitted).
Other courts have reached the same conclusions.
See Feinstein v. Rickman, 136 A.D.3d 863, 864-65,
26 N.Y.S.3d 135, 137 (N.Y. App. Div. 2016) (affirming
the lower court’s dismissal of the plaintiff’s secondhand
smoke nuisance claim); Nuncio v. Rock Knoll Townhome Village, Inc., 389 P.3d 370, 374-75 (Okla. Civ.
App. 2016) (“We agree with Defendants that no
published Oklahoma decision has addressed claims
arising out of smoke migrating from a neighbor’s use
of tobacco in his home. Other states which have
addressed these claims have almost uniformly found

App.59a
no right to relief.”) (collecting cases); Schuman v. Greenbelt Homes, Inc., 69 A.3d 512, 520 (Md. App. 2013)
(“Because GHI’s members were allowed to smoke at
the time the contracts were signed (and still are), the
mere act of smoking in one’s unit or on one’s patio is
unlikely to be substantially and unreasonably offensive
to any person at any time.”).
Smoking in Michigan, as in many other states,
is regulated by the state legislature. The Michigan
Clean Indoor Air Act, Mich. Comp. Laws § 333.12601
et seq., prohibits smoking in several public places,
including restaurants, places of employment, and
health care facilities. The legislature has not yet
limited a person’s right to smoke in his or her own
home.
Here, the plaintiff does not point to any specific
evidence of the extent or amount of secondhand
smoke being generated at Echo Valley, or any evidence of the extent of harm to her body. She mentions elsewhere in her briefing that other residents
have complained about smoking at Echo Valley, but
she has not presented that information in such a way
that would give the Court a basis to depart from the
reasoning of other courts. General observations about
smoking at hotels or other residences do not establish that smoking at Echo Valley is so unreasonable
as to trigger the Board’s enforcement obligation under
the bylaws. There is nothing that suggests that the
smoking habits of the residents of Echo Valley are
unique or that they present any special danger to the
plaintiff. It is, of course, possible to imagine an extreme
scenario where cigarette smoke could be considered a
nuisance or annoyance, as illustrated by some of the
cases the plaintiff cited. But without some evidence

App.60a
that the cigarette smoke concentration and accompanying odors extend beyond “the annoyances one
must endure in a multiple dwelling building,” Davis
cannot show that the secondhand smoke at Echo
Valley constitutes an “offensive activity,” “an annoyance or a nuisance” that the Board is compelled to
eradicate through its contractual enforcement powers.
The defendants, therefore, are entitled to a judgment as a matter of law on Count IV of the amended
complaint.
IV.
The plaintiff has not offered sufficient justification to exclude the testimony of Mark Clor. The
undisputed material facts establish that the plaintiff
is not entitled to relief on any of her claims, and the
defendants are entitled to a dismissal of the amended
complaint.
Accordingly, it is ORDERED that the plaintiff’s
motion to exclude the testimony of Mark Clor (ECF
No. 63) is DENIED.
It is further ORDERED that the plaintiff’s motion
for summary judgment (ECF No. 64) is DENIED and
the defendants’ motion for summary judgment (ECF
No. 80) is GRANTED.
It is further ORDERED that, because the motions and responses fully set forth the arguments,
and oral argument will not assist in the disposition
of the motion, the Court will decide it on the papers,
see E.D. Mich. LR 7.1(f)(2), and hearing scheduled
for November 26, 2018 is CANCELLED.
It is further ORDERED that the plaintiff’s
motion for contempt (ECF No. 85) and her second

App.61a
motion to compel document production (ECF No. 89)
are DISMISSED as moot.
It is further ORDERED that the amended complaint is DISMISSED WITH PREJUDICE.
s/David M. Lawson
David M. Lawson
United States District Judge
Date: November 7, 2018

App.62a

ORDER DENYING PETITION FOR REHEARING
EN BANC OF THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT
(JANUARY 22, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
PHYLLIS DAVIS,

Plaintiff-Appellant,
v.
ECHO VALLEY CONDOMINIUM ASSOCIATION;
CASA BELLA PROPERTY MANAGEMENT, INC.,

Defendants-Appellees.
________________________
Case No. 18-2405
Before: COOK, NALBANDIAN,
and MURPHY, Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition
for rehearing and concludes that the issues raised in
the petition were fully considered upon the original
submission and decision of the case. The petition
then was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.

App.63a
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App.64a
RELEVANT CONSTITUTIONAL PROVISIONS,
STATUTORY PROVISIONS, AND
FEDERAL RULES OF PROCEDURE
U.S. CONST. AMEND. VII
In Suits at common law, where the value in controversy shall exceed twenty dollars, the right of trial
by jury shall be preserved, and no fact tried by a
jury, shall be otherwise re-examined in any Court of
the United States, than according to the rules of the
common law.
___________________________
42 USCS § 3601
It is the policy of the United States to provide,
within constitutional limitations, for fair housing
throughout the United States.
___________________________
42 USCS § 3604
As made applicable by section 803 [42 USCS
§ 3603] and except as exempted by sections 803(b) and
807 [42 USCS §§ 3603(b), 3607], it shall be unlawful—
(a) To refuse to sell or rent after the making of a
bona fide offer, or to refuse to negotiate for the sale
or rental of, or otherwise make unavailable or deny,
a dwelling to any person because of race, color, religion, sex, familial status, or national origin.
(b) To discriminate against any person in the terms,
conditions, or privileges of sale or rental of a dwelling,
or in the provision of services or facilities in connection therewith, because of race, color, religion, sex,
familial status, or national origin.

App.65a
(c) To make, print, or publish, or cause to be made,
printed, or published any notice, statement, or advertisement, with respect to the sale or rental of a
dwelling that indicates any preference, limitation, or
discrimination based on race, color, religion, sex,
handicap, familial status, or national origin, or an
intention to make any such preference, limitation, or
discrimination.
(d) To represent to any person because of race, color,
religion, sex, handicap, familial status, or national
origin that any dwelling is not available for inspection,
sale, or rental when such dwelling is in fact so available.
(e) For profit, to induce or attempt to induce any
person to sell or rent any dwelling by representations
regarding the entry or prospective entry into the
neighborhood of a person or persons of a particular
race, color, religion, sex, handicap, familial status, or
national origin.
(f)
(1) To discriminate in the sale or rental, or to
otherwise make unavailable or deny, a dwelling to
any buyer or renter because of a handicap of—
(A) that buyer or renter, [;]
(B) a person residing in or intending to
reside in that dwelling after it is so sold,
rented, or made available; or
(C) any person associated with that buyer
or renter.
(2) To discriminate against any person in the
terms, conditions, or privileges of sale or rental of a

App.66a
dwelling, or in the provision of services or facilities in
connection with such dwelling, because of a handicap
of—
(A) that person; or
(B) a person residing in or intending to
reside in that dwelling after it is so
sold, rented, or made available; or
(C) any person associated with that person.
(3) For purposes of this subsection, discrimination includes—
(A) a refusal to permit, at the expense of the
handicapped person, reasonable modifications of
existing premises occupied or to be occupied by
such person if such modifications may be necessary to afford such person full enjoyment of the
premises except that, in the case of a rental, the
landlord may where it is reasonable to do so
condition permission for a modification on the
renter agreeing to restore the interior of the
premises to the condition that existed before the
modification, reasonable wear and tear excepted.
[;]
(B) a refusal to make reasonable accommodations
in rules, policies, practices, or services, when
such accommodations may be necessary to afford
such person equal opportunity to use and enjoy a
dwelling; or
(C) in connection with the design and construction of covered multifamily dwellings for first
occupancy after the date that is 30 months after
the date of enactment of the Fair Housing Amendments Act of 1988 [enacted Sept. 13, 1988], a

App.67a
failure to design and construct those dwellings
in such a manner that—
(i) the public use and common use portions of
such dwellings are readily accessible to and
usable by handicapped persons;
(ii) all the doors designed to allow passage
into and within all premises within such
dwellings are sufficiently wide to allow passage
by handicapped persons in wheelchairs; and
(iii) all premises within such dwellings contain the following features of adaptive design:
(I) an accessible route into and through
the dwelling;
(II) light switches, electrical outlets,
thermostats, and other environmental
controls in accessible locations;
(III) reinforcements in bathroom walls to
allow later installation of grab bars; and
(IV) usable kitchens and bathrooms such
that an individual in a wheelchair can
maneuver about the space.
(4) Compliance with the appropriate requirements of the American National Standard for buildings
and facilities providing accessibility and usability for
physically handicapped people (commonly cited as
“ANSI A117.1”) suffices to satisfy the requirements
of paragraph (3)(C)(iii).
(A) If a State or unit of general local government has incorporated into its laws the requirements set forth in paragraph (3)(C), compliance

App.68a
with such laws shall be deemed to satisfy the
requirements of that paragraph.
(B) A State or unit of general local government
may review and approve newly constructed covered
multifamily dwellings for the purpose of making
determinations as to whether the design and
construction requirements of paragraph (3)(C)
are met.
(C) The Secretary shall encourage, but may not
require, States and units of local government to
include in their existing procedures for the review
and approval of newly constructed covered multifamily dwellings, determinations as to whether
the design and construction of such dwellings
are consistent with paragraph (3)(C), and shall
provide technical assistance to States and units
of local government and other persons to implement the requirements of paragraph (3)(C).
(D) Nothing in this title shall be construed to
require the Secretary to review or approve the
plans, designs or construction of all covered
multifamily dwellings, to determine whether the
design and construction of such dwellings are
consistent with the requirements of paragraph
3(C).
(6)
(A) Nothing in paragraph (5) shall be construed
to affect the authority and responsibility of the
Secretary or a State or local public agency certified
pursuant to section 810(f)(3) of this Act [42 USCS
§ 3610(f)(3)] to receive and process complaints or
otherwise engage in enforcement activities under
this title.

App.69a
(B) Determinations by a State or a unit of general
local government under paragraphs (5)(A) and
(B) shall not be conclusive in enforcement proceedings under this title.
(7) As used in this subsection, the term “covered
multifamily dwellings” means—
(A) buildings consisting of 4 or more units if
such buildings have one or more elevators; and
(B) ground floor units in other buildings
consisting of 4 or more units.
(8) Nothing in this title shall be construed to
invalidate or limit any law of a State or political
subdivision of a State, or other jurisdiction in which
this title shall be effective, that requires dwellings to
be designed and constructed in a manner that affords
handicapped persons greater access than is required
by this title.
(9) Nothing in this subsection requires that a
dwelling be made available to an individual whose
tenancy would constitute a direct threat to the health
or safety of other individuals or whose tenancy would
result in substantial physical damage to the property
of others.
___________________________
MCL 559.207
CONDOMINIUM ACT OF 1978
559.207 ACTION TO ENFORCE TERMS AND PROVISIONS OF
CONDOMINIUM DOCUMENTS; ACTION FOR INJUNCTIVE
RELIEF OR DAMAGES.
Sec. 107. A co-owner may maintain an action
against the association of co-owners and its officers

App.70a
and directors to compel these persons to enforce the
terms and provisions of the condominium documents.
In such a proceeding, the association of co-owners or the
co-owner, if successful, shall recover the costs of the
proceeding and reasonable attorney fees, as determined
by the court, to the extent that the condominium
documents expressly so provide. A co-owner may
maintain an action against any other co-owner for
injunctive relief or for damages or any combination
thereof for noncompliance with the terms and provisions of the condominium documents or this act.
___________________________
MCL 559.215
CONDOMINIUM ACT OF 1978
559.215 ACTION BY PERSON OR ASSOCIATION ADVERSELY
AFFECTED BY VIOLATION OF OR FAILURE TO COMPLY WITH
ACT, RULES, AGREEMENT, OR MASTER DEED; COSTS; VIOLATION OF MCL 559.121 OR 559.184A; LIABILITY.

Sec. 115.
(1) A person or association of co-owners adversely
affected by a violation of or failure to comply with
this act, rules promulgated under this act, or any
provision of an agreement or a master deed may
bring an action for relief in a court of competent jurisdiction. The court may award costs to the prevailing
party.
(2) A developer who offers or sells a condominium unit in violation of section 21 or 84a is liable to
the person purchasing the condominium unit for
damages.
___________________________

App.71a
FED. R. CIV. P. 8(A)(2)
GENERAL RULES OF PLEADING
(a) Claim for Relief. A pleading that states a
claim for relief must contain:
[...]
(2) a short and plain statement of the claim
showing that the pleader is entitled to relief;
___________________________
FED. R. CIV. P. 10
FORM OF PLEADINGS
(c) Adoption by Reference; Exhibits. A statement
in a pleading may be adopted by reference elsewhere
in the same pleading or in any other pleading or
motion. A copy of a written instrument that is an
exhibit to a pleading is a part of the pleading for all
purposes.

App.72a
PLAINTIFF PHYLLIS DAVIS’ FIRST AMENDED
COMPLAINT, RELEVANT EXCERPTS
(NOVEMBER 14, 2017)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
________________________
PHYLLIS DAVIS,

Plaintiff,
v.
ECHO VALLEY CONDOMINIUM ASSOCIATION,
CASA BELLA PROPERTY MANAGEMENT, INC.,
MOISEY LAMNIN, ELLA LAMNIN,
AND WANDA RULE,

Defendants.
________________________
Case No. 2:17-cv-12475
Injunctive Relief Requested
Jury Trial Demanded
[...]
17. Upon information and belief, Echo Valley is
a community condominium association, organized
under the laws of the State of Michigan, responsible for
governing and managing approximately eight buildings
in a subdivision known as echo valley (“Subdivision”).
A true and correct copy of Echo Valley’s bylaws
(“Bylaws”) are attached hereto as Exhibit 1.

App.73a
[...]
29. On information and belief, during the time
of her tenancy, Ms. Rule, co-occupants of Unit 115,
and/or guests of Unit 115 (collectively “Tenants”) have
consumed, and continue to regularly consume, tobacco
and/or other substances by way of combustion, i.e. burning said tobacco and/or other substances, (“Smoking”)
in Unit 115.
30. On information and belief, the Smoking has
produced, and continues to produce, hazardous, toxic,
carcinogenic, and irritating gases and particulate
matter (“Pollutants”).
31. On information and belief, the Pollutants
have been dispersed, and continue to be dispersed,
throughout the Connected Units and Common
Elements, including by way of the Shared Ventilation
System (“Smoking Related Nuisances”).
38. The Tenants’ Smoking is an annoyance
and/or nuisance under the Annoyance and Nuisance
Provision.
[...]
40. On information and belief, permitting Smoking
inside condominium units increases the rate of insurance for Echo Valley and/or other co-owners of a
properties located within the Subdivision.
43. On information and belief, the Smoking
Related Nuisances create unsafe, unclean, and/or
unsanitary conditions.
[...]
80. The Defendants have control over the Smoking
Related Nuisances interfering with Ms. Davis’ private

App.74a
use and enjoyment of Unit 214 and the Common
Elements.
81. The Defendants have, and had, a duty to
prevent, remedy, and provide relief from, the Smoking
Related Nuisances.
82. As described more thoroughly herein, the
Defendants breached their duty to prevent, remedy,
and provide relief from, the Smoking Related Nuisances
by failing to take appropriate preventative and remedial
measures.
[...]
102. Echo Valley breached its duties under the
Condominium Documents, by, among other things,
failing to enforce provisions contained in the Condominium Documents, including the Annoyance and
Nuisance Provision, the Insurance Rate Provision,
and the SCS Provision.
103. Casa Bella breached its assumed duties, by,
among other things failing to enforce provisions
contained in the Condominium Documents, including
the Annoyance and Nuisance Provision, the Insurance
Rate Provision, and the SCS Provision.
[...]
109. Ms. Davis is entitled to equitable relief,
including abatement of the Smoking related annoyances and nuisances as monetary damages are insufficient to compensate Ms. Davis for her injuries.
[...]

App.75a
JURY DEMAND
Pursuant to Fed. R. Civ. P. 38(b), Plaintiff Phyllis
Davis hereby demands a jury trial on all issues
triable by a jury.
Respectfully submitted,
BROOKS KUSHMAN P.C.
/s/ Alan J. Gocha
ALAN J. GOCHA (P80972)
JUSTIN A. BARRY (P80053)
1000 Town Center, Twenty-Second Floor
Southfield, Michigan 48075
Telephone: (248) 358-4400
Facsimile: (248) 358-3351
Email:agocha@brookskushman.com
jbarry@brookskushman.com

Attorneys for Plaintiff
Dated: November 14, 2017

App.76a
CONDOMINIUM BYLAWS,
ECHO VALLEY CONDOMINIUM,
EXHIBIT A, RELEVANT EXCERPTS
ARTICLE XI
REMEDIES FOR DEFAULT
Section 1. Any default by a co-owner shall entitle
the Association of another co-owner or co-owners to
the following relief:
(a) Failure to comply with any of the terms or
provisions of the Condominium Documents
shall be grounds for relief, which may include
without intending to limit the same, an action
to recover sums due for damages, injunctive
relief, fore-closure of lien (if default in
payment of assessment) or any combination thereof, and such relief may be sought
by the Association, or, if appropriate, by an
aggrieved co-owner or co-owners.
(b) In any proceeding arising because of an
alleged default by any co-owner, the Association, if successful, shall be entitled to
recover the costs of the proceeding and such
reasonable attorneys’ fees, (not limited to
statutory fees) as may be determined by the
Court, but in no event shall any co-owner be
entitled to recover such attorneys’ fees.
(c) The violation of any of the provisions of the
Condominium Documents shall also give
the Association or its duly authorized agents
the right, in addition to the rights set forth
above, to enter upon the common elements,
limited or general, or into any apartment,

App.77a
where reasonably necessary, and summarily
remove and abate, at the expense of the coowner in violation, any structure, thing or
condition existing or maintained contrary to
the provisions of the Condominium Documents.
(d) In the event of a default by a co-owner in
the payment of any assessment as provided
in these Condominium Bylaws or the Rules
and Regulations of the Condominium, the
Association may impose upon the defaulting
co-owner a late charge, which shall be: (1)
reasonable in amount and reflective of the
expense of the inconvenience incurred, (2)
approved and authorized by the Board of
Directors on behalf of the Association, (3)
set forth in a published notice setting forth
the amount and effective date of the late
charge which shall be at least thirty (30)
days after the date of publishing the notice,
and (4) imposed uniformly on all defaulting
co-owners for late payment of levied assessments,
Section 2. The failure of the Association or of any
co-owner to enforce any right, provision, covenant or
condition which may be granted by the Condominium
Documents shall not constitute a waiver of the right
of the Association or of any such co-owner to enforce
such right, provisions, covenant or condition in the
future.

App.78a
DEPOSITION OF LOUISE GENOVESE,
RELEVANT EXCERPTS
(APRIL 30, 2018)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
________________________
PHYLLIS DAVIS,

Plaintiff,
v.
ECHO VALLEY CONDOMINIUM ASSOCIATION,
CASA BELLA PROPERTY MANAGEMENT, INC.,
MOISEY LAMNIN, ELLA LAMNIN,
AND WANDA RULE,

Defendants.
________________________
Case No.: 2:17-cv-12475
Honorable David M. Lawson
Magistrate Judge Anthony P. Patti
The deposition of LOUISE GENOVESE, taken in
the above-entitled cause before Susan E. Castino,
(CSR 4856) and Notary Public for the County of
Wayne, Michigan, at 1000 Town Center, Southfield,
Michigan, on Monday, April 30, 2018, commencing at
or about the hour of 2:00 p.m.
[...]
Q

Memo from Louise Genovese, #136: R/T medical
marijuana laws adversely affecting this resident

App.79a
in her condominium. Health and safety affected
by extreme use of this drug with smoke permeating
through the air vents from Mr. Casey Nevers,
#236-not abiding by Article VI, Section 4 and 8
of Echo Valley Condominium bylaws: (improper).
Offensive activity or permit any activity that
will increase the rate of insurance.
Is that a correct reading?
A

Correct.
[...]

Q

Was it your position at the time these meeting
minutes were created that smoke from marijuana
was a health hazard?

A

As of evidence, I did, yes -- of search, it is.

Q

At the time that those minute meetings were
created, did you believe marijuana smoke was a
safety hazard?

A

Yes.

Q

Is your position the same today, that marijuana
smoke can be a health and safety hazard?

A

Not can be, is. Yes.
[...]

Q

Is it your position today that marijuana smoke
constitutes an offensive activity under the bylaws?

A

From my experience, yes.
[...]

App.80a
Q

Was it your position that allowing marijuana
smoke increased the rate of insurance because it
was a fire hazard.

A

Correct. It still is.
[...]

Q

At this meeting, did you take a position as to
whether cigarette smoke should be designated
as a nuisance?

A

Now?

Q

Do you have a position?

A

Now?

Q

Yes.

A

As it relates to the other smoking sources -- or
smoke sources, I would say yes.
[...]

Q

Earlier, you indicated that marijuana smoke
entered into your unit from other units; is that
correct?

A

Yes.

Q

Where did the marijuana smoke enter into the
unit, through the door or through the vents or
somewhere else?

A

Both.
[...]

App.81a
Q

You had a neighbor who left because of the smoke.

A

Correct.
[...]

Q

(By Mr. Gocha) Do you consider marijuana smoke
to be safe?

MS. BUTLER: Same objection.
THE WITNESS: I would say no.
Q

(By Mr. Gocha) Do you consider cigarette smoke
to be safe?

A

No.

Q

Do you consider marijuana smoke to be clean?

A

No.

Q

Do you consider cigarette smoke to be clean?

A

No.
[...]

Q

However, you consider marijuana smoke and
cigarette smoke to be both safe -- sorry. Let me
rephrase. Scratch that.
You consider marijuana smoke and cigarette
smoke to both be unsafe and unclean; is that
correct?

A

Yes.

Q

In your opinion, is marijuana smoke or cigarette
smoke pumping through the vents from another
person’s unit a violation of Section 15 on the
page that has the Bates Number PD 020?

A

Well, on those two, evidence -- I’d say for those
two, yes.

App.82a
DEPOSITION OF DIANA WILLIAMS,
RELEVANT EXCERPTS
(APRIL 30, 2018)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
________________________
PHYLLIS DAVIS,

Plaintiff,
v.
ECHO VALLEY CONDOMINIUM ASSOCIATION,
CASA BELLA PROPERTY MANAGEMENT, INC.,
MOISEY LAMNIN, ELLA LAMNIN,
AND WANDA RULE,

Defendants.
________________________
Case No.: 2:17-cv-12475
Honorable David M. Lawson
Magistrate Judge Anthony P. Patti
The deposition of DIANA WILLIAMS, taken in the
above-entitled cause before Susan E. Castino, (CSR
4856) and Notary Public for the County of Wayne,
Michigan, at 1000 Town Center, Southfield, Michigan,
on Monday, April 30, 2018, commencing at or about
the hour of 10:00 a.m.
[...]
Q

You’re aware of two individuals who moved out
of Echo Valley because of smoking?

App.83a
A

Uh-huh.
[...]

Q

And, earlier, you testified that you raised the
issue of smoking; is that correct?

A

Yes.

Q

And when did you raise this issue?

A

I don’t remember when. I believe on and off a
lot. But recently I got a vent filter because it was
intolerable.

Q

What was intolerable?

A

The smoking coming from another unit.

Q

The smoking from another unit entered your
unit?

A

Uh-huh.
[...]

Q

But you smell smoke in your unit?

A

Yes.

Q

And does that come from the door, the vents?

A

Vents.

Q

How do you know it comes front the vents?

A

Because when I’m sitting there in a room watching
TV or something, I can smell it coming through
the vents.

Q

And how often do you smell smoke?

A

Almost every day.
[...]

App.84a
Q

(By Mr. Gocha) Have you taken a position at a
board meeting as to whether cigarette smoke
coming through air vents in someone’s unit is a
health hazard?

A

Yes.

Q

What was that position?

A

It’s a health hazard.

Q

Is that position the same today?

A

Yes.
[...]

Q

Do you have a position as to whether cigarette
smoke can constitute a nuisance to those who do
not smoke?

A

I never thought of it as a nuisance, per se, that
way -- the way you’re presenting it, I just know
that it can cause health hazard is what I said.

Q

When the cigarette smoke was going into your
unit --

A

Yes.

Q

-- did that make you uncomfortable?

A

Yes.
[...]

Q

How did it make you uncomfortable?

A

Hard to breathe. Open windows. Coughing.

Q

Did it reduce the enjoyment of your unit?

A

Yes.

Q

How did it reduce the enjoyment of your unit?

App.85a
A

I couldn’t sit still and watch a program I was
watching. I had to get up and move around.
[...]

Q

Have you ever taken a position as to whether
smoking coming from one unit to another unit is
in violation of this particular section?

A

It was never presented to me that way to take a
position.

Q

Do you have a position?

A

Yes.

Q

What is that position?

A

Yes, it’s in violation.
[...]

Q

Have you ever been to a building other than at
Echo Valley where you’ve smelled cigarette smoke
coming out of vents?

A

No, I haven’t. And I’ve lived in apartments and I
haven’t.

App.86a
MINUTES OF THE ECHO VALLEY
CONDOMINIUM ASSOCIATION (EVCA)
(NOVEMBER 2, 2015)
ECHO VALLEY CONDOMINIUM ASSOCIATION (EVCA)
Minutes
November 2, 2015 6:00 P.M.
Echo Valley Clubhouse
Bylaw Committee Meeting
Meeting Called By
Phyllis Davis Co-Chair
Type of Meeting
Bylaw Committee Meeting - 2
Committee Members
Phyllis Davis, Louise Genovese, Beatrice Jones
Committee Co-Owners
Lisa Gaines, Colleen Markus
Absent
Diana Williams, Ed Buatti
Call to Order
6:10 pm
[...]
ARTICLE VI: RESTRICTIONS
Section 1 A & B to do list
1. Recommend review of Farmington Hills city
laws relating to:
a.

Single family residence limitations

App.87a
b.

Residence number of persons limitation per
unit bedroom numbers: one, two and three
so as to conform with city occupation laws.

2. Recommend adding a Section 16
a.

For health and safety of co-owners and
family/occupants of apartment areas and
common area restriction.

3. Recommend oral smoking of any plant material,
A.K.A. tobacco, marijuana, heroin, etc., be:
a.

Restricted to outside private porches or patios
only.

b.

Restricted from common areas, A.K.A. entry
hails, laundry areas, sidewalks, parking
area, club house, pool area. Restricted so as
to be free of nuisance, offensive, dangerous
health and safety activity to all co-owners
and personnel in the Echo Valley Condominium complex grounds.

App.88a
DEPOSITION OF COLLEEN O’ROURKE,
RELEVANT EXCERPTS
(MAY 2, 2018)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
________________________
PHYLLIS DAVIS,

Plaintiff,
v.
ECHO VALLEY CONDOMINIUM ASSOCIATION,
CASA BELLA PROPERTY MANAGEMENT, INC.,
MOISEY LAMNIN, ELLA LAMNIN,
AND WANDA RULE,

Defendants.
________________________
Case No.: 2:17-cv-12475
Honorable David M. Lawson
Magistrate Judge Anthony P. Patti
The deposition of COLLEEN O’ROURKE, taken in
the above-entitled cause before Susan E. Castino,
(CSR 4856) and Notary Public for the County of
Wayne, Michigan, at 1000 Town Center, Southfield,
Michigan, on Wednesday, May 2, 2018, commencing
at or about the hour of 10:00 a.m.
[...]

App.89a
Q

So around 4:00 in the morning, Phyllis Davis felt
it necessary to send you an e-mail regarding the
heavy smoke in her condo; is that correct?

A

Apparently.

Q

And you responded by stating in the second
sentence of your paragraph, here: I can put this
on the agenda for the March meeting to see if
the board would like the attorney’ opinion on
smoking in a condominium.
Do you see that?

A

I do.
[...]

Q

Do you know if this was put on the board’s
meeting agenda?

A

Yes, it was.

Q

Or do you know if the board discussed smoking?

A

The board -- she discussed it every meeting. And
the board discussed it with her every meeting.
[...]

Q

So you’re aware that she -- she told you that Tony
verified with utter surprise the enormous amount
of smoke; is that correct?

A

Yes.

Q

Did you ever go to the unit to verify the smoke
for yourself?

A

No, I did not.

Q

So you never stepped foot in the unit?

A

Not in her condo, no.

App.90a
[...]
Q

But the only association that you’ve ever received
a complaint for regarding smoking is at Echo
Valley, correct?

A

Is Echo Valley, yes.
[...]

App.91a
DEFENDANTS’ ECHO VALLEY CONDOMINIUM
ASSOCIATION (EVCA) MOTION FOR SUMMARY
JUDGMENT, RELEVANT EXCERPTS
(JUNE 18, 2018)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
________________________
PHYLLIS DAVIS,

Plaintiff,
v.
ECHO VALLEY CONDOMINIUM ASSOCIATION,
CASA BELLA PROPERTY MANAGEMENT, INC.,
MOISEY LAMNIN, ELLA LAMNIN,
AND WANDA RULE,

Defendants.
________________________
ORAL ARGUMENT REQUESTED
Case No. 17-12475
Hon. David M. Lawson
DEFENDANTS’ MOTION
FOR SUMMARY JUDGMENT
In support of their Motion For Summary Judgment, Defendants Echo Valley Condominium Association and Casa Bella Property Management, Inc.
rely upon the facts and arguments set forth in their
Response to Plaintiff’s Motion for Summary Judgment
and in the attached Brief.

App.92a
On June 18, 2018, the undersigned counsel participated in a conference call with Plaintiff’s counsel
seeking concurrence in the requested relief. The
undersigned explained the basis for the requested
relief, but Plaintiff did not provide her concurrence to
the relief requested in Defendants’ Motion for Summary Judgment.
STARR, BUTLER, ALEXOPOULOS
& STONER, PLLC
By: /s/ Kay Rivest Butler
Kay Rivest Butler (P41651)
Co-Counsel for Echo Valley Condominium &
Casa Bella Property Management, Inc.
20700 Civic Center Dr., Ste. 290
Southfield, MI 48076
(248) 864-4932
kbutler@starrbutler.com
Dated: June 18, 2018
[...]
C.

Summary Judgment Must Be Granted to
Defendants as to the Breach of Covenant Claims
in Count IV.

Plaintiff also seeks to hold Defendants liable for
an alleged failure to enforce the Bylaw provisions on
nuisance, annoyance, offensiveness, increased insurance rates, or safe, clean and sanitary provisions.
However, the Complaint is devoid of any claim of
breach of covenant as to a Bylaw provision on “Unlawful and Offensive” conduct. Since Plaintiff has not
plead that claim, it is not part of her lawsuit and she
cannot now attempt to base any claim upon an
alleged breach of any Bylaw provision for “Unlawful

App.93a
and Offensive” conduct. See Tucker v. Union of Needletrades, Indus., & Textile Emps., 407 F3d. 784, 787-88
(6th Cir. 2005).
As to the breach of covenant claims in Plaintiff’s
Complaint, Plaintiff alleges that Defendants violated
their contractual duties to enforce the Bylaws (see
Amended Complaint, Dkt.#30, PgID 770, para. 93).
The gravamen of Plaintiff’s claims in Count IV against
these Defendants is that Defendants have not discharged their responsibilities by allegedly failing to
enforcement the Bylaws against other Co-owners. Such
a claim necessarily implicates the business judgment
rule as Defendants “enjoy the protection of the business judgment rule in discharging [their] responsibilities.” Adelman v. Compuware Corp., 2017 WL 6389899, at *3 (Mich. Ct. of Appeals, Dec. 14, 2017) (citing
Polk v. Good, 507 A2d 531, 536 (Del Supr. 1986)).
Decisions as to whether smoking in one’s unit violates
any covenants set forth in the Bylaws and whether to
take any enforcement action are subject to the wellestablished business judgment rule that requires
deference to Board decisions, including those for nonprofit Associations. See Ayres v Hadaway, 303 Mich
589; 6 NW2d 905 (1942); Reed v Burton, 344 Mich
126, 131; 73 NW2d 333 (1955). “The [business judgment] rule creates the presumption “that in making
a business decision that the directors of a corporation
acted on an informed basis, in good faith and in the
honest belief that the action taken was in the best
interests of the corporation.” Adelman, at * 3, citing
Polk, 507 A2d at 536. Thus, as long as the Association controls its affairs within the limits of the law,
matters of business judgment and discretion are not
subject to judicial review. See Reed v Burton, 344
Mich at 131.

App.94a
Nothing in Article I, Section 4(a)(11) requires
Defendants to take specific action in regards enforcement of Bylaws and Plaintiff cannot dictate otherwise.
Here, Defendants installed a fresh air system on
Plaintiff’s furnace and requested that the Co-Owners
of Unit 115 control the smoking in their Unit. Defendants did not have the authority to implement a
smoking ban as to what occurs within other Units,
regardless of whether such efforts are labeled enforcement of the nuisance, annoyance, insurance increases,
or cleanliness Bylaw provisions. Nevertheless, Defendants attempted, albeit unsuccessfully, to obtain such
authority through a Co-owner vote to amend the
Master Deed.
Plaintiff bears the burden of proof to show that the
Board’s decisions as to enforcement of these Bylaw
provisions falls outside the protections afforded by
the business judgment rule. In re Butterfield Estate,
418 Mich 241; 341 NW2d 453 (1983). Plaintiff has
not done so. She cannot do so in light of Defendants’
actions in regards to smoking taking place in other
Co-owners’ Units. Defendants’ actions are entitled to
deference under the business judgment rule and cannot
be second-guessed through a breach of covenant claim.
Plaintiff cannot be allowed to circumvent the business judgment rule by bootstrapping contractual
claims against other Co-owners against these Defendants.
Even regardless of the extreme deference to be
afforded to Defendants’ decisions under the business
judgment rule, Plaintiff’s breach of covenant claims fail.
As to the nuisance provision of the Bylaws, Plaintiff’s
attempt to rely upon the testimony of a few Board
members is misplaced because not only does it fail to

App.95a
establish nuisance or a breach of covenant, but such
generalized testimony does not address whether smoking in other Units constitutes a nuisance in Plaintiff’s Unit. As set forth above, Plaintiff’s claim does
not satisfy the requirements of a nuisance.
Nor does Plaintiff present any controlling authority holding that an annoyance is legally actionable so
as to support a claim for breach of covenant. Even if
she had, she cannot show that Defendants breached
any contractual duty to Plaintiff in that regard,
especially in light of the business judgment rule and
Defendants’ actions.
Article VI, Section 4 of the Bylaws prohibits Coowners from doing anything that “will” increase the
insurance rate. Ms. Genovese’s testimony in that
regard does not support Plaintiff as she only testified
that cigarette smoking “could” increase the rate of
insurance and there was no foundational support for
even that statement (Ex. 2, Genovese Dep. Tr., p.
27). Plaintiff has presented no evidence that smoking
actually will increase insurance rates. Her speculation is insufficient to withstand Summary Judgment.
Finally, Plaintiff cannot credibly argue smoking
in one’s Unit creates a condition that is not safe, clean
or sanitary in violation of Article VI, Section 15 of
the Bylaws. The record does not contain any evidence
from any source as to the condition inside Unit 115
or any other Unit. Without evidence as to the interior
of such Units, Plaintiff cannot establish that such
Units were not safe, clean or sanitary in violation of
the Bylaws.
For the reasons set forth above and in Defendant’s
Response to Plaintiff’s Motion for Summary Judgment,

App.96a
Defendants request that this Honorable Court grant
their Motion for Summary Judgment and Dismiss
Counts I, II, III and IV of Plaintiff’s First Amended
Complaint.
STARR, BUTLER, ALEXOPOULOS
& STONER, PLLC
By: /s/ Kay Rivest Butler
Kay Rivest Butler (P41651)
Co-Counsel for Echo Valley Condominium &
Casa Bella Property Management, Inc.
20700 Civic Center Dr., Ste. 290
Southfield, MI 48076
(248) 864-4932
kbutler@starrbutler.com
Dated: June 18, 2018

